United States Department of Agriculture
Office of Inspector General




FNS: Controls for Authorizing
Supplemental Nutrition Assistance
Program Retailers




                                          Audit Report 27601-0001-31
                                          July 2013
                                          FNS: Controls for Authorizing Supplemental
                                         Nutrition Assistance Program (SNAP) Retailers

                                                      Audit Report 27601-0001-31

What Were OIG’s
Objectives

To assess (1) FNS’ controls
over the retailer authorization
process; (2) findings reported
by Scripps Howard News
Service of permanently             In light of news articles on SNAP trafficking,
disqualified owners                OIG audited the controls FNS uses for
participating in SNAP; and (3)
FNS’ recent actions to
                                   authorizing, reauthorizing, and disqualifying
strengthen its processes.          retailers that participate in SNAP.
What OIG Reviewed                  What OIG Found
In fiscal year 2012, FNS           The Office of Inspector General (OIG) found that the Food and
distributed over $75 billion in    Nutrition Service (FNS) does not have clear procedures and guidance
SNAP benefits to low-income        to carry out key oversight and enforcement activities to address SNAP
households and approved            retailer fraud, or adequate authority to prevent multiple instances of
246,565 retailer locations to      fraud—either by a particular owner or within a particular location. In
participate in SNAP. FNS has       addition, FNS regional offices put their limited resources towards
seen a 41 percent increase in      other activities, such as retailer authorization, rather than assessing
retail authorization over the      and enforcing retailer penalties. These issues occurred because FNS
last 5 fiscal years.               has not yet comprehensively updated its regulations and guidance to
                                   reflect the changed fraud risks that accompanied the transition from a
What OIG Recommends                stamp-based benefit system to the Electronic Benefit Transfer system.
                                   This has led to a retailer authorization process without clear roles and
FNS should comprehensively         responsibilities for different FNS divisions, inadequate supervisory
review its policies and            reviews, and fragmented access to important documents. Finally,
procedures, seek legislative       FNS does not require retailers to undergo self-initiated criminal
change to retain a portion of      background checks. Although FNS has recently taken several steps to
retailer penalties, require        strengthen oversight—such as creating new policy for high-risk
background checks for              retailers and increasing denial rates for business integrity issues—
retailers, strengthen internal     without a proper authorization framework, we found that problems
guidance, make improvements        often went undetected or unaddressed.
to its automated retailer data
system, create and strengthen      As a result, the integrity of SNAP is at risk because FNS does not
safeguards for high-risk stores,   consistently provide deterrents for trafficking. From a sample of 316
and require more supervisory       locations, we found that FNS did not properly determine potentially
reviews. FNS should also           $6.7 million in penalties, and authorized 51 ineligible store owners,
review the owners we               who redeemed over $5.3 million in benefits since 2006. In addition,
identified to determine if they    we identified 586 owners allowed to continue participating in SNAP
need to be penalized or            at other locations after being permanently disqualified, and 90 retail
disqualified from SNAP.            locations that had two or more firms permanently disqualified. OIG
                                   accepted management decision on 12 of the 20 recommendations;
                                   however, further action from the agency is needed before
                                   management decision can be reached for the other recommendations.
                           United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250



DATE:          July 31, 2013

AUDIT
NUMBER:        27601-0001-31

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Director
               Office of Internal Controls, Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       FNS: Controls for Authorizing Supplemental Nutrition Assistance Program
               Retailers


This report presents the results of the subject audit. Your written response to the official draft,
dated July 16, 2013, is included in its entirety at the end of this report. Excerpts from your
response and the Office of Inspector General’s (OIG) position are incorporated into the relevant
Finding and Recommendation sections of the report. Based on your written response, we are
able to accept management decision on Recommendations 1, 2, 3, 4, 8, 12, 13, 14, 15, 18, 19,
and 20. However, we are unable to accept management decision on Recommendations 5, 6, 7, 9,
10, 11, 16, and 17. Documentation or action needed to reach management decision for these
recommendations are described under the relevant OIG Position sections.

Please follow your internal agency procedures in forwarding final action correspondence to the
Office of the Chief Financial Officer. In accordance with Departmental Regulation 1720-1,
please furnish a reply within 60 days describing the corrective actions taken or planned, and
timeframes for implementing the recommendations for which management decisions have not
been reached. Please note that the regulation requires management decision to be reached on all
recommendations within 6 months from report issuance, and final action to be taken within
1 year of each management decision to prevent being listed in the Department’s annual Agency
Financial Report. However, we agreed to extend final action for Recommendations 3, 8, and 20
until September 30, 2014, and December 31, 2015, for Recommendation 12.
Audrey Rowe                                                                                  2


We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents
Background and Objectives ................................................................................ 3
Section 1: SNAP Retailer Guidance ................................................................... 6
Finding 1: FNS Needs To Update and Clarify Its Guidance and Procedures .. 6
        Recommendation 1 ...................................................................................12
        Recommendation 2 ...................................................................................13
        Recommendation 3 ...................................................................................14
        Recommendation 4 ...................................................................................14
        Recommendation 5 ...................................................................................14
Finding 2: A Single Retail Store Location Can Be Permanently Disqualified
Multiple Times for Trafficking ......................................................................... 16
        Recommendation 6 ...................................................................................17
        Recommendation 7 ...................................................................................17
Finding 3: FNS Authorizes Permanently Disqualified Retail Store Owners to
Participate in SNAP ........................................................................................... 19
        Recommendation 8 ...................................................................................20
        Recommendation 9 ...................................................................................21
        Recommendation 10..................................................................................21
        Recommendation 11..................................................................................22
Section 2: FNS Retailer Authorization and Enforcement .............................. 24
Finding 4: Retailers Circumvented Permanent Disqualification .................... 24
        Recommendation 12..................................................................................25
        Recommendation 13..................................................................................26
        Recommendation 14..................................................................................27
        Recommendation 15..................................................................................27
Finding 5: FNS is Not Consistently Imposing Penalties on Retailers .............. 29
        Recommendation 16..................................................................................30
        Recommendation 17..................................................................................31
Finding 6: FNS Did Not Follow Its Own Procedures for Initially Authorizing
High-Risk Retail Locations ............................................................................... 33
        Recommendation 18..................................................................................34
         Recommendation 19..................................................................................35
         Recommendation 20..................................................................................35
Scope and Methodology ..................................................................................... 37
Abbreviations ..................................................................................................... 39
Exhibit A: Summary of Monetary Results ....................................................... 40
Agency's Response ............................................................................................. 41
Background and Objectives 
Background
The Food and Nutrition Service (FNS) administers the Supplemental Nutrition Assistance
Program (SNAP) to provide improved levels of nutrition to low-income households. Eligible
households can use their benefits to purchase food from retail food stores that have been
approved to participate in SNAP. In fiscal year (FY) 2012, FNS provided SNAP benefits in
excess of $75 billion to over 46 million people, with over 246,000 participating retailers.

To be authorized to participate in SNAP, retailers must apply to FNS, and be approved, before
they can accept SNAP benefits through Electronic Benefits Transfer (EBT). A retailer seeking
to be authorized must submit documentation regarding the nature and extent of its food business,
as well as additional owner and business documentation.1 FNS reauthorizes retailers at least
once every 5 years, and in January 2012, FNS issued a policy requiring high-risk retailers to be
reauthorized annually, effective beginning in FY 2013. Retailers who abuse SNAP by
trafficking or other fraud may be disqualified from the program temporarily or permanently, or
may receive only a civil money penalty, depending on the circumstances.2 The Store Tracking
and Redemption System (STARS) supports FNS’ management of retailer authorization,
withdrawals, disqualifications, and tracking. STARS maintains extensive data on all retailers
that apply for, and participate in, the SNAP program. The system is also used for the monitoring
of benefit redemptions, reconciliation with EBT processors, and compliance, including retailer
investigations, and the development of cases brought against retailers found to be violating
SNAP regulations.

Permanent disqualification is reserved for the most serious cases, such as trafficking, and stands
as the maximum disqualification period permitted by the Act and FNS program regulations. 3 A
firm can be disqualified permanently if personnel of the firm—such as a clerk, other employee,
or management and owners—commit a flagrant violation.4 When a retail location is serving a
disqualification period and the owner sells or transfers the store prior to the completion of the
disqualification period, or before paying its civil money penalties in full, FNS is required to
impose a transfer-of ownership civil money penalty.




1
  Authorized retailers must continuously sell a variety of qualifying foods from four staple food categories or receive
at least 50 percent of their gross sales from a variety of qualifying staple food items.
2
  FNS may impose a trafficking penalty in lieu of a permanent disqualification if the retail location meets specific
eligibility criteria. A hardship penalty may also be imposed in lieu of disqualification if FNS determines that
removing the retail location from SNAP would cause a hardship, rather than just an inconvenience, to recipients that
normally frequent the location.
3
  Public Law 110-234, Title IV, Section 4001, Food and Nutrition Act of 2008.
4
  FNS deems flagrant violations to be trafficking in SNAP benefits for cash; trafficking in firearms, ammunition,
explosives, or controlled substances; or violations which warrant a disqualification and the firm has previously been
sanctioned twice.

                                                                           AUDIT REPORT 27601-0001-31                3
Retail store owners permanently disqualified from SNAP due to trafficking sometimes attempt to
circumvent the disqualification by establishing "straw ownerships."5 This often involves
transferring or selling the firm to a spouse or relative. FNS regulations prohibit this practice, and
also prohibit authorization of a new owner who was part of the disqualified firm during the time
the violations occurred.

FNS also uses an Anti-Fraud Locator using EBT Retailer Transactions Database (ALERT) to
provide Watch Lists, which detail possible retailer fraud activities, to regional and field offices.
Field offices are responsible for monitoring the retailers, imposing disqualifications on retailers
found violating program rules, and ensuring disqualified retailers do not continue to participate
in SNAP. When a SNAP case is extremely egregious, FNS will refer it to an investigative
branch, so that a formal investigation can be conducted.6

Scripps Howard News Service (Scripps Howard) is a national investigative news service. In
February 2012, Scripps Howard reported that retailers permanently disqualified from SNAP due
to trafficking were still allowed to redeem SNAP benefits after the disqualification. In
March 2012, a congressional hearing was held by the U.S. House of Representatives Committee
on Oversight and Government Reform to assess the Department of Agriculture’s (USDA)
oversight of SNAP retailers and determine the validity of the claim by the news service.
Following the testimony, the Office of Inspector General (OIG) undertook this audit.

We performed an evaluation of the information disclosed by Scripps Howard, including FNS’
review of the results. FNS provided OIG a list of 36 retailers that Scripps Howard reported as
being permanently disqualified, but still listed as currently authorized. FNS researched the claim
to determine if it was valid. FNS conducted an extensive review of the retailers and determined
that 29 of the 36 retailers were not associated with the previous permanently disqualified owner.
FNS found that six of the retailers circumvented the permanent disqualification through straw
owners, and one case was referred to OIG for investigation.

After reviewing the retailers identified by Scripps Howard, OIG agreed with FNS’ determination
for 32 of the 35 retailers. 7 However, we determined that two retailers were cleared by FNS in
error. Specifically, one retail location appeared to have the previous permanently disqualified
owner’s lease still in effect, because the file lacked documentation to show a transfer of
ownership. The second retail location had a currently authorized owner who had been part of the
management group of the previous permanently disqualified ownership. For the third location,
FNS officials were unable to locate the file; therefore, we could not evaluate FNS’
determination.

FNS designates stores as high-risk for a variety of reasons, including if (1) there are any previous
permanent disqualifications at that location, or (2) the store’s owner has been permanently

5
  For the purposes of this report, OIG uses this term as it is defined in an online legal dictionary to encompass the
various methods by which a person receives the title to a property or a business interest for the sole purpose of
concealing the true owner.
6
  The investigative entities include the FNS Retailer Investigative Branch, State Law Enforcement Bureaus, and OIG
Office of Investigations.
7
  We did not review the one retailer under investigation.

4     AUDIT REPORT 27601-0001-31
disqualified at another location. In January 2012, FNS implemented new high-risk procedures
that required staff to obtain additional documentation and conduct a more detailed review to
identify associations with previously disqualified owners. For example, FNS is required to
obtain and review all applicable business licenses, bills of sale, store leases, and property deeds.
In addition, FNS staff must conduct a System for Award Management8 search, and contact
outside agencies that interact with retailers to gain more information on the high-risk location.
For instance, an FNS authorization staffer should contact a State liquor licensing agency to gain
more information about a retailer.

OIG issued an audit report on FNS' retailer authorization processes in 2008.9 FNS and OIG
reached management decision on the two recommendations, but disagreed on the issue of
requiring criminal background checks for SNAP retailer applicants. We recognize that FNS does
not have the legal authority to perform National Crime Information Center (NCIC) background
checks; instead, we agree with FNS that it can legally require retailers to obtain and provide their
own NCIC record as part of the application process.

Objectives
The overall objectives were to assess (1) FNS’ controls over the retailer authorization process to
participate in the Supplemental Nutrition Assistance Program (SNAP), including the initial
authorization, periodic reauthorization, and disqualification processes; (2) the findings reported
by Scripps Howard News Service; and (3) FNS’ recent actions taken, based on previous audit
recommendations and recent news articles, to strengthen its processes to prevent the
authorization of previously disqualified owners from participating in SNAP.




8
    This is a General Services Administration system, formerly known as Excluded Parties List System.
9
    Food Stamp Program Retailer Authorization and Store Visits, 27601-15-At, September 26, 2008.

                                                                          AUDIT REPORT 27601-0001-31    5
Section 1:  SNAP Retailer Guidance 
Finding 1: FNS Needs To Update and Clarify Its Guidance and Procedures
FNS does not have clear procedures and guidance to carry out key oversight and enforcement
activities related to retailer fraud, or adequate authority to prevent multiple instances of fraud,
either by a particular owner or at a particular location. In addition, we found that some FNS
regional offices made the decision to put their limited resources towards activities other than
assessing and enforcing retailer penalties. These issues occurred for several reasons. First,
FNS did not comprehensively update its regulations and guidance to reflect the changing
circumstances of retailer fraud investigations and enforcement actions when the SNAP program
transitioned from stamp-based benefits to the EBT system. Also, FNS does not require retailers
to undergo criminal background checks before being allowed to participate in SNAP. Finally,
with all retailer penalties reverting to Treasury, rather than supplementing FNS’ current funding
sources, providing adequate resources for such compliance activities continues to be a challenge.
As a result, the integrity of SNAP is at risk because FNS does not provide sufficient deterrents to
trafficking. We found that FNS did not properly evaluate and impose potentially $6.7 million of
transfer penalties on permanently disqualified owners (Finding 5), and authorized 51 ineligible
store owners who circumvented permanent disqualification and redeemed over $5.3 million in
SNAP benefits (Finding 4). Also, we identified 586 owners who were allowed to continue
participating in SNAP at other locations after being permanently disqualified (Finding 3), and
90 retail locations that had two or more owners’ firms permanently disqualified (Finding 2).10
We found the overwhelming majority of permanent disqualifications are due to trafficking.

Office of Management and Budget (OMB) Circular A-123 states that management must clearly
define areas of authority and responsibility. 11 The Clinger-Cohen Act of 1996 also requires
agencies to revise administrative processes, as appropriate, "before making significant
investments in information technology."12 Most of FNS Handbook 318, hereafter referred to as
the “handbook,” was written at a time when benefits were redeemed through food stamp
coupons, instead of through EBT; a shift that fundamentally changed the nature of SNAP
trafficking.13 EBT was established in 1990 as an alternative way to issue benefits, and FNS
required all States to have the EBT system available by October 1, 2002. As of June 2008, EBT
became the sole method for redeeming benefits, and the name of the program was officially
changed to SNAP from the Food Stamp Program.14 FNS updated portions of the handbook in
2004, and issued new Standard Operating Procedures (SOPs) in 2009, but neither constituted a
comprehensive update of the procedures.15




10
   Several owners and locations we identified appear in multiple findings.
11
   OMB Circular A-123, Management’s Responsibility for Internal Control, Section II, Revised December 21, 2004.
12
   Public Law 104-106, Title LI, Section 5113, National Defense Authorization Act for Fiscal Year 1996.
13
   FNS Handbook 318 provides policy on how FNS shall administer activities related to: (a) the authorization of
retail food stores to accept food stamp benefits; (b) the supervision of authorized firms; and, (c) the imposition of
sanctions and claims against firms found to be violating the rules and regulations.
14
   Public Law 110-234, Title IV, Section 4001, Food, Conservation and Energy Act of 2008.
15
   FNS updated 6 out of a total of 23 chapters in the handbook.

6     AUDIT REPORT 27601-0001-31
Previously, smaller numbers of SNAP retailers became permanently disqualified because the
process required a full, physical investigation of the wrongdoing. With current methods of EBT
enforcement, retailers can be permanently disqualified by exhibiting certain trends known to
correlate to trafficking. These are referred to as "paper cases" because they do not involve an
onsite investigation of these stores, but rely on data analysis techniques done remotely. FNS was
required to establish regulations to use paper cases in August 1996.16 FNS issued policy
memoranda regarding administrative action against retailers based on transaction data in January
and November of 1995. The use of EBT paper cases caused the number of permanently
disqualified retailers to increase.

Total permanent disqualifications by time period




This chart shows the increase in permanent disqualifications after the introduction of EBT cards. While there were only
101 permanent disqualifications nationwide between November 1983 and December 1990, this number increased to
9,361 between October 2002 and December 2012.

In addition, the overall number of retailers participating in the program has increased
dramatically in recent years. In 2008, over 175,000 retailers participated in SNAP, while
2012 data shows an increase in retailer participation to over 246,000.

FNS reorganized its retailer management functions in January 2013, to streamline and enhance
authorization, reauthorization, and compliance activities by incorporating technology
advancements, improving communication, and integrating operations into a single national
unit. FNS' efforts include issuing new SOPs, shifting employee duties, and proposing

16
     Public Law 104-193, Title VIII, Section 841, Personal Responsibility and Work Opportunity Reconciliation Act.

                                                                                 AUDIT REPORT 27601-0001-31               7
substantially increased penalties for many kinds of violations. We view these efforts as a
positive step in strengthening enforcement, and believe FNS must also take a comprehensive
look at its regulations and guidance related to retailer authorization and fraud to ensure that these
are clear, effective, and updated.

Regulations and Guidance

Though FNS has recently strengthened its authorization process for high-risk stores (see
Finding 6), FNS’ guidance reviewed during the audit does not delineate the roles and
responsibilities of its regional retailer authorization and compliance divisions. Because their
roles in the process and the coordination of actions are not defined, we found these divisions
often did not complete required steps for detecting issues with retailers that had been
permanently disqualified and that subsequently sold or transferred their businesses.

As we describe in Findings 4 and 5, FNS personnel did not properly assess whether (1) a
legitimate transfer of business occurred after the previous owner had been permanently
disqualified, and (2) a transfer penalty for the previous permanently disqualified owner was
warranted. Transfer penalties can only be applied if the transfer is legitimate—if not, the new
store owner should not be authorized to participate in the program in the first place, as they are
closely associated with the previous permanently disqualified owner (such as being a spouse or
employee).17 Such transfers are referred to as "straw ownerships," in that they are a stand in, or
"straw man," for another person. If a new owner does not provide sufficient documentation to
demonstrate that the transfer is legitimate, FNS staff should not authorize his or her SNAP
application.18

In 2004, sections of the handbook were updated to address issuing transfer of ownership
penalties. However, FNS guidance is contradictory or unclear on the roles of the authorization
and compliance staff. Chapter 10 of the handbook states that FNS staff are responsible for
evaluating a transfer or sale as legitimate and, if necessary, assessing a transfer of ownership
penalty. However, Chapter 10 does not specify which regional division performs these actions.
Unfortunately, two SOPs issued in 2009—one used by compliance staff, the other used by
authorization staff—appear to contradict each other.19

        ·   SOP 1 for authorization staff states that it is their responsibility to (1) obtain proof
            that the transfer is legitimate and (2) if applicable, resolve an automatic flag in FNS'
            retailer information system for the location by requesting additional documents from
            the retailer. This indicates that authorization staffers are responsible for determining
            whether a sale is legitimate. The SOP also mentions the transfer of ownership
            penalty, but does not make clear when, how, and who should pursue the penalty.

        ·   SOP 4-5 for compliance staff states that they "must establish that a legitimate sale or
            transfer has taken place…" by examining documents submitted by the buyer, seller,

17
   FNS Handbook 318, Chapter 10.
18
   FNS Handbook 318, Chapter 3.
19
   Authorization SOP 1, revised December 2010 and Compliance SOP 4-5, revised May 2011.

8     AUDIT REPORT 27601-0001-31
             and applicable third parties—implying that compliance staffers are responsible for
             determining whether a sale is legitimate. It then explains that if the transfer is not
             legitimate, "any request for authorization on the part of the 'new' owner will be
             denied." The SOP does not specify who is responsible for actually carrying out the
             denial.

The handbook also contains confusing information regarding when a transfer should be
considered ineligible. Section 1041 states that a sale or transfer for little or no money is not
necessarily illegal or automatic grounds for denial, except when occurring between a close
acquaintance, or to relatives other than a spouse or close relative. Section 1041 says that these
terms are defined in Chapter 6, A7 (a) and (b). However, no such Chapter exists in the current
version of the handbook.

This overall lack of clarity carried over into the daily actions of the authorization and compliance
divisions, whom we found would frequently not assess transfer penalties, not gather sufficient
documentation to determine that transfers were legitimate, and approve non-legitimate transfers.
When we discussed why oversights occurred, FNS staff stated they were not always aware of the
requirement or that it was the other division's job to carry out the action. Also, some FNS staff
did not conduct sufficient reviews of documents already available—some of which were at
separate physical locations, and often in the possession of two different divisions.

We note that because the EBT system has given rise to more sophisticated methods for
identifying trafficking than were available under stamp benefits, the frequency of permanent
disqualification has increased. FNS regulations need to change to reflect some situations
stemming from this new reality. For instance, FNS' current regulations allow for a retail location
to be authorized even if multiple previous owners have been permanently disqualified. The topic
is not addressed in any SOPs or guidance. Since locations with multiple permanent
disqualifications continue to be authorized under new ownership, this practice appears to enable
repeat trafficking among the SNAP participants that the store serves (see Finding 2). 20

Also at issue are multi-unit owners being permanently disqualified at one location, who are still
allowed to stay in the program and receive new authorizations for other owned locations to
participate in SNAP. Handbook Section 1340 states that if an owner with a permanently
disqualified location "was not involved in any of the violations and owned more than one firm
(location) prior to the investigation of the initial location, the application should be accepted and
processed without prejudice."

This flexibility was necessary because the nature of stamp benefits allowed rogue employees to
potentially commit trafficking without the owner's knowledge. Therefore, regulations gave
owners that were not involved in the violations, and owned more than one location, the chance to
get other new locations authorized, as well as the ability to keep existing owned locations
participating in SNAP. While this approach was fair during the era of stamp benefits, the EBT

20
  FNS permanently disqualified a total of 101 retailers before implementation of EBT (November 1983 through
November 1990), and did not keep data on how many, or if, these disqualifications involved the same retail location.
During the period of our review, January 2006 through June 2011, we identified 129 locations that had multiple
permanent disqualifications, out of a total of 4,599 permanent disqualifications during this time.

                                                                         AUDIT REPORT 27601-0001-31               9
system requires that all revenues from SNAP be directly deposited into the owner's bank
account. Thus, owners with employees caught trafficking are now more likely to be involved in
or knowledgeable about the fraud themselves. An SOP, updated in May 2011, reflects this,
stating that, "it is generally assumed that if EBT settlements are made to the owner’s account
then the owner has benefited."21

When we discussed this issue with FNS, officials used Section 1340 to explain the current
practice of allowing permanently disqualified owners in one location to continue participating in
the program (for more details, see Finding 3). However, OIG notes that the handbook is vague
and sometimes contradicts itself on this topic, as do some SOPs.

             ·    Handbook Section 310 states that an owner can be denied authorization if they
                  had "a previous denial of authorization on grounds which still warrant denial,"
                  and if the owner has a previous disqualification still in effect.

             ·    SOP 1 states that it is possible for FNS to remove locations from SNAP if it
                  determines that the owner "is part of a multi-unit firm and there is evidence of
                  violations at other firms."

Handbook Section 320 brings up the issue of business integrity, stating that the personal
involvement of the owner of the firm in serious violations is sufficient basis for denying other
locations under the same ownership, based on the lack of business integrity. This section also
gives FNS the ability to weigh multiple violations at multiple locations as a factor, even when
the ownership is not directly involved in the violations, again on the basis of business integrity.

Background Checks and Resources

FNS' regulations clearly state that FNS shall deny the authorization of a firm if its business
integrity and reputation is called into question by crimes such as embezzlement, theft, forgery,
and falsification or destruction of records.22 However, regulations do not currently permit FNS
to pursue and obtain a National Crime Information Center (NCIC) background check for store
owners applying to redeem SNAP benefits, and do not require the applicant to obtain its own
NCIC criminal background check. 23

NCIC background checks are the most comprehensive checks of all the criminal background
checks available. Information contained in NCIC databases is provided by the Federal Bureau of
Investigations; Federal, State, local and foreign criminal justice agencies; and authorized
courts. NCIC criminal history data are provided to non-criminal justice State and local agencies
for use in connection with licensing, employment, or other uses, but only where such

21
   Compliance SOP 4-5, revised May 2011.
22
   7 Code of Federal Regulations (CFR) 278.1(b)(3). Other offenses include making false statements, bribery,
receiving stolen property, making false claims, or obstruction of justice; and violating Federal, State, and/or local
consumer protection laws or other laws relating to alcohol, tobacco, firearms, controlled substances, and/or gaming
licenses.
23
   NCIC is the United States' central database for tracking crime-related information, providing information flow
between numerous law enforcement agencies.

10      AUDIT REPORT 27601-0001-31
dissemination is authorized by Federal or State statutes and approved by the Attorney General of
the United States. For example, many State alcohol and tobacco bureaus and public school
districts require NCIC background checks before licensing or employment.

While current regulations do not prohibit FNS from requiring an applicant to provide a self-
initiated background check, FNS has stated that such a requirement would be burdensome to
applicants. FNS currently requires an applicant owner to self-certify by answering an application
question on whether any individual involved in the ownership or management of the retail store
has been convicted of any crime. Applicants must provide an explanation if they disclose a
criminal record.

We noted that self-certification is not always honestly done, and there is no check in place to
determine if the declaration is correct. For instance, from a limited review of 212 owners from
our sampled locations, we identified 3 owners that did not report prior criminal convictions that
would have made them ineligible for SNAP.24 These three owners were subsequently
permanently disqualified for trafficking.

In a 2008 audit, OIG recommended that FNS determine the feasibility of requiring retailers to
obtain their own NCIC background information as part of the application process.25 FNS
responded by stating that requiring background checks from applicants could be overly
burdensome and be seen as an invasion of privacy. We believe that FNS' concern in this case is
unfounded. Several other Department of Agriculture programs place additional requirements on
applicants that carry higher risks. For instance, the Risk Management Agency requires
producers with high-risk land to pay higher premiums as a condition for receiving Federal crop
insurance. Background checks are also commonly required by State agencies that regulate the
sale of alcohol or lottery tickets at retail stores. Therefore, we contend that requiring background
checks of retailers is neither an unusual nor unprecedented requirement. NCIC background
checks can be facilitated through most local law enforcement agencies, and require
fingerprinting by the agency in order to run the check. The total cost for the fingerprinting and
background check report service in ten States26 ranges from $26 to nearly $80 and takes
approximately 3 to 21 business days to complete.

While such a requirement would not be overly burdensome to retailer applicants, we
acknowledge that FNS may have concerns about the increased time and work it may add to the
authorization process. We believe that background checks would not be burdensome on FNS
staff if applicants are required to obtain a background check on their own and provide it to FNS
as part of their application materials. The applicant can request to have the results of the NCIC
background check provided directly to FNS.



24
   Our review to identify criminal histories of store owners was limited to Federal court records available through
the Public Access to Court Electronic Records (PACER). Because we were unable to use NCIC databases for our
review, we believe the total number of retailers with criminal histories is understated because State and local
criminal records are not part of PACER.
25
   Food Stamp Program Retailer Authorization and Store Visits, 27601-15-At, September 26, 2008.
26
   NCIC background check costs were obtained for Alabama, California, Florida, Kansas, Minnesota, Missouri, New
Mexico, New York, and Washington from the States' applicable criminal justice agencies websites.

                                                                      AUDIT REPORT 27601-0001-31               11
FNS concedes that there is no provision in the Food and Nutrition Act of 2008 that prohibits it
from requiring retailers to obtain their own NCIC record. However, FNS contends that to
require retailers to obtain their record, regulations must be changed. Thus, FNS should change
its regulations to require new applicants and retailers seeking re-authorization to procure and
submit a background check as part of normal application procedures. FNS could use such
information to exclude known criminals with questionable business integrity, as required by FNS
regulations.

Requiring background checks is a specific step to strengthen FNS enforcement. Overall, FNS
needs resources to effectively implement new policies and procedures to mitigate trafficking.
For FY 2012, FNS' total cost for all of its programs stood at $106.7 billion—a 207 percent
increase from FY 2005.27 FNS staff positions are funded primarily out of the Nutrition Programs
Administration account; this account has represented approximately one-third of 1 percent of the
total FNS budget. The agency has responded to limitations on its administrative resources and
staffing with actions such as making use of new technologies and adopting a more focused, risk
based approach to program oversight. However, in its FY 2012 financial report, FNS raised
concerns about its ability to execute internal controls already put in place, or to develop
additional controls that may be needed in the future.

Since FNS retailer penalties currently revert to the U.S. Treasury and do not benefit FNS
directly, we believe that FNS should propose that the Secretary request a legislative change
allowing FNS to keep a portion of the penalties it collects from retailers as a supplement to its
annual appropriations. FNS could then put the resulting funds towards enhancing its
enforcement and oversight capabilities. Such a measure could also provide FNS with increased
resources to consistently and accurately apply penalties to retailers (See Finding 5).

In conclusion, FNS' overlapping and outdated guidance must be addressed so that FNS
employees can clearly understand their responsibilities. FNS must also have clear and effective
enforcement actions available to aid staff in preventing reoccurring trafficking problems.
Finally, increased resources for FNS enforcement activities and greater requirements placed on
high-risk owners will give FNS the tools it needs to more effectively address fraud.

Recommendation 1
Review the handbook, SOPs, and regulations to ensure that they do not contradict one another
and provide a practical framework for authorization and enforcement actions using the EBT
system.

Agency Response
FNS concurs with the recommendation and has completed corrective actions. FNS reviewed its
retailer management policy handbook and standard operating procedures prior to completion of


27
  Food and Nutrition Service Financial Statements for Fiscal Years 2012 and 2011, 27401-0002-21, November 8,
2012, and Food, Nutrition, and Consumer Services’ Financial Statements for Fiscal Year 2005, 27401-1-FM,
November 8, 2005.

12      AUDIT REPORT 27601-0001-31
this OIG audit, and created National SOPs and policy memos. FNS has systemically identified
operational inconsistencies and developed a process to eliminate their reoccurrence. FNS has
also better identified roles and responsibilities, instituted random supervisory reviews, and held
weekly supervisor calls with staff to ensure policies are followed consistently. FNS is also
working to develop enhanced reviews of internal controls processes and training needs. The
retailer management policy handbook is being retired by September 30, 2013 in favor of issue-
specific policy memorandums. At the same time, FNS is forming a quality assurance branch to
objectively identify and address retailer management issues.

In subsequent correspondence, FNS stated that actions required for this recommendation were
completed February 1, 2013.

OIG Position
We accept FNS’ management decision.

Recommendation 2
Review SOPs to ensure they provide clear instructions on division of responsibilities and the
steps that should be taken to review, authorize, deny, penalize, and collect penalties from an
owner.

Agency Response
FNS agrees with this recommendation, and had actions on this issue underway prior to this audit.
FNS completed National SOPs on February 1, 2013. FNS has also completed extensive staff
training, as detailed in the response to Recommendation 1. An internal control oversight
component was established on May 1, 2013, and a quality assurance function is being integrated
into retailer management. FNS is also in the midst of a Lean Six Sigma effort to improve the
collection of established penalties and is considering many options such as using data brokers, a
third party collection agent at the Department of Treasury, or the Treasury Offset Program. FNS
will complete this effort by September 30, 2014, and implement recommendations stemming
from the effort in fiscal year 2014.

In subsequent correspondence, FNS stated that actions required for this recommendation were
completed February 1, 2013.

OIG Position
We accept FNS’ management decision.




                                                             AUDIT REPORT 27601-0001-31          13
Recommendation 3
Update the regulations to require any new applicant and current retailers being reauthorized to
provide FNS with a self-initiated NCIC background check prior to authorization or
reauthorization.

Agency Response
FNS agrees to initiate a proposed rule that would require any new, high-risk applicant, and
current high-risk retailers being reauthorized who have not already completed such certification,
to provide FNS with a self-initiated NCIC background check prior to authorization or
reauthorization. The required work plan to initiate this proposed rule will be completed in fiscal
year 2014.

In subsequent correspondence, FNS stated that the work plan to initiate the proposed rule will be
completed by September 30, 2014.

OIG Position
We accept FNS’ management decision.

Recommendation 4
Establish SOPs and/or update the handbook to address how criminal background checks will be
used and reviewed by personnel.

Agency Response
FNS will establish appropriate policy and standard operating procedures pending a final
regulation stemming from Recommendation 3. These will be established within one year of the
effective date of the final rule.

OIG Position
We accept FNS’ management decision.

Recommendation 5
Propose that the Secretary seek legislative change to allow FNS to retain a portion of funds
collected from retailer penalties as a supplement to its annual appropriations that can be used to
enhance its abilities to oversee retailer authorization, monitoring, and enforcement actions,
including assessing warranted penalties.




14     AUDIT REPORT 27601-0001-31
Agency Response
FNS agrees with the goal of enhancing program integrity. A decision to pursue the ability to
retain a portion of funds collected from retailer penalties as a supplement to annual
appropriations however, requires considerable research and deliberation. FNS agrees to work
with the Office of Management and Budget to develop options for additional resources to pursue
program compliance. The timeframe is contingent upon the budget process.

OIG Position
We are unable to agree with FNS’ proposed corrective action for this recommendation. In order
to reach management decision, FNS needs to provide a position paper or decision memorandum
to the Secretary outlining its goal of enhancing program integrity by retaining a portion of funds
collected from retailer penalties could be used to enhance its retailer authorization, monitoring,
and enforcement actions.




                                                            AUDIT REPORT 27601-0001-31         15
Finding 2: A Single Retail Store Location Can Be Permanently Disqualified
Multiple Times for Trafficking
Our review of 316 retail store locations identified 90 locations that had two or more firms
permanently disqualified.28 FNS had subsequently authorized all of these locations under new
ownership. This occurred because FNS does not have the authority to permanently disqualify a
troubled store location that has a repeat history of trafficking violations. The permanent
disqualification only applies to the owner at each subject location. At the same time, FNS does
not have the legal authority to implement additional safeguards for high-risk locations associated
with multiple permanent disqualifications, which could deter future trafficking. We note that
many of the 90 locations we identified appear in our other findings, such as circumventing
permanent disqualification (Finding 4). Since high-risk retail store locations with multiple
permanent disqualifications continue to be authorized under new ownership, this practice appears
to enable trafficking among the SNAP participants that the store serves.

As we described in Finding 1, FNS regulations do not address the issue of a single location with
multiple permanent disqualifications under different owners. FNS is allowed to disqualify a
firm29 if personnel of the firm commit a flagrant violation, but not the physical location.30
Further, according to an Office of the General Counsel opinion, FNS is not legally allowed to
permanently disqualify a physical location. However, if an owner has been previously
sanctioned for a violation that was not serious enough to warrant a permanent disqualification,
such as selling ineligible items for SNAP benefits, then the owner must present a collateral bond
or letter of credit as a condition of future authorization.31 Thus, while current store owners with
previous SNAP violations are subject to additional safeguards, the Food and Nutrition Act of
2008 prohibits FNS from requiring store owners to post a bond or a letter of credit for an initial
authorization at a high-risk location.

Our review found some locations that had several disqualifications, many of which were in the
last 5 years. For instance, a store in Camden, New Jersey, had five owners that were
disqualified, starting in July 1996. Three were permanently disqualified in February 2007,
November 2009, and April 2011. We found that one of the five owners was a case of
circumvention, which is identified in Finding 4.32 Another store location, in Patterson,
New Jersey, had four permanently disqualified owners in the last 5 years.33 Again, one of the
four owners was a case of circumvention we identified. Another location in Bronx, New York,
was initially authorized in August 2000 and the owner was permanently disqualified in
May 2002. There have been four additional owners permanently disqualified at this location,

28
   Of the 90 stores, 53 disqualifications occurred in the last 5 years.
29
   FNS Handbook 318, Section 1020 defines a firm as a “commercial business entity or enterprise of one or more
persons.”
30
   FNS Handbook 318, Section 1022A – Permanent Disqualification.
31
   7 CFR 278.1 (b) 4. The collateral bond must have a face value in the amount of $1,000 or 10 percent of the
average monthly redemptions for the most immediate 12 months that the firm participated, whichever amount is
greater.
32
   FNS does not define circumvention, but infers that it is an attempt to avoid a period of disqualification by selling
the firm to a spouse or relative or former manager or employee that was part of the operation during the time the
violations occurred.
33
   Starting in November 2007.

16       AUDIT REPORT 27601-0001-31
three of which occurred since 2007. One of the owners also owned another authorized store
when he was disqualified, yet was allowed to continue participating in SNAP at the other store.
We identified this case in Finding 3.

There are no additional safeguards to prevent these locations from being authorized under new
ownership, although FNS has clear evidence that fraud is a continuing problem in the locations.
If a new owner is required to have a vested interest in SNAP by posting a collateral bond or letter
of credit, this would help deter those who may be trying to purchase a store, not as a viable
business, but as an easy location for committing SNAP fraud. We believe that the amount of the
bonds or letters of credit should be proportionate to the risks the location poses, such as being
based on the number of previous violations at each location. For instance, FNS could base the
amount at half of the proposed statutory limit for trafficking, which is $100,000. In conclusion,
the amount should be sufficient to serve as a viable deterrent to potential traffickers.

Recommendation 6
Propose that the Secretary seek legislative changes that would allow FNS the authority to require
any applicant of a location that has been previously permanently disqualified for trafficking to
have a vested interest, such as posting a collateral bond or letter of credit before authorization.

Agency Response
FNS supports this recommendation and will pursue legislative change that would allow FNS the
authority to require any applicant of a location that has been previously permanently disqualified
for trafficking to have a vested interest, such as posting a collateral bond or letter of credit before
authorization. FNS will consider the best option for determining an appropriate, scalable, bond
or letter of credit amount. The timeframe is contingent on opportunities to pursue statutory
change (i.e. via the Farm Bill).

OIG Position
We are unable to agree with FNS’ proposed corrective action for this recommendation because
of the contingent timeframe. However, we recognize the burdensome and time-consuming
nature of obtaining legislative changes. Therefore, in order to reach management decision, FNS
needs to provide a position paper or decision memorandum to the Secretary seeking legislative
changes that would allow FNS the authority to require any applicant of a location that has been
previously permanently disqualified for trafficking to have a vested interest, such as posting a
collateral bond or letter of credit, before authorization.

Recommendation 7
If legislative changes are made, establish collateral bond and letter of credit limits based on the
number of previous violations at the location, or a percentage of the proposed statutory limits for
trafficking penalties. Until legislative changes are made, strengthen oversight and monitoring of
store locations that have been permanently disqualified two or more times for trafficking.


                                                               AUDIT REPORT 27601-0001-31           17
Agency Response
As noted in the Agency’s response to Recommendation 6, FNS supports seeking legislative
change that would require the new owners of a previously permanently disqualified location to
have a vested interest. FNS will consider the best option for determining an appropriate,
scalable, bond amount. The timeframe is contingent upon Recommendation 6 above.

However, FNS does not agree with predicating strengthened oversight and monitoring of store
locations that have been permanently disqualified two or more times for trafficking on whether
Recommendation 6 is legally viable. In fact, FNS has already strengthened oversight and
monitoring of such high-risk locations, including additional documentation requirements and
increased frequency for reauthorization, and will continue to pursue opportunities for further
improvements within existing authorities.

OIG Position
We are unable to agree with FNS’ proposed corrective action for this recommendation. In order
to reach management decision, FNS needs to provide a position paper or decision memorandum
to the Secretary as discussed under Recommendation 6. Also, FNS needs to provide OIG with
evidence of its strengthened oversight of store locations that have been permanently disqualified
two or more times for trafficking.




18     AUDIT REPORT 27601-0001-31
Finding 3: FNS Authorizes Permanently Disqualified Retail Store Owners to
Participate in SNAP
Out of over 246,000 SNAP-authorized locations nationwide, FNS currently allows
585 multi-unit retail store owners to continue redeeming SNAP benefits at other locations after
being permanently disqualified for trafficking in one location.34 This occurred because FNS
allows owners of multi-unit firms to be independently sanctioned with permanent
disqualifications at each retail location. Also, after an initial permanent disqualification occurs,
FNS staff are not required to subject the owners' other locations to increased scrutiny, but may
do so at their own discretion.35 While FNS officials said that this policy is in place to protect
chain stores whose employees may be committing fraud without knowledge of the management,
we found that none of the 586 owners owned a chain store.36 As a result of this policy, we found
39 owners who were identified in FNS’ STARS as the actual case violators responsible for their
disqualification. The violators redeemed over $3.8 million in SNAP benefits for FY 2012 at
their other SNAP-authorized locations. We also found 66 permanently disqualified owners who
were authorized at new locations after their disqualifications. They collectively redeemed over
$11 million in benefits in FY 2012. The remaining 481 owners redeemed over $50.5 million for
FY 2012.37,38 We believe that the current practice weakens SNAP fraud deterrence efforts and
could allow an owner that has participated in fraud to continue such behavior in other locations.

FNS staff have the ability to withdraw a SNAP authorization if the firm's owner was personally
involved in serious violations, based on a lack of business integrity. FNS can also deny any
applicant with evidence of violations at other units of multi-unit firms.39 However, the FNS
handbook states that an application should be approved if the owner was not involved in any of
the violations and owned more than one location prior to the investigation of the initial
location.40 As we described in Finding 1, this policy was necessary under the stamp benefit
system, but the EBT system requires that all SNAP revenue be deposited directly into a
designated owner's account. According to FNS, it is generally assumed that if EBT settlements
are made to the owner’s account, then the owner has benefited. 41

FNS officials believed that this policy protects major grocery stores and other chain stores from
permanent disqualification. However, our review found that the 586 owners did not include any
of these types of stores. While 18 owners had 5 or more stores authorized, these were
convenience stores and not major grocery stores. FNS officials were also concerned that since a
majority of permanent disqualifications come from EBT paper cases, identifying an actual case
violator is difficult. However, FNS assumes that since SNAP benefits are directly deposited into

34
   There were a total 586 permanently disqualified multi-unit owners. One multi-unit owner was permanently
disqualified for selling ineligible items.
35
   FNS Handbook 318 Section 1022(I)(1).
36
   FNS defines a chain store as a major chain supermarket with 11 or more similar stores or a large, non-chain
supermarket having $2 million or more in annual gross sales. The owners in question held several small,
independent stores that did not meet these criteria.
37
   These annual redemption amounts are for FY 2012 (October 1, 2011 through September 30, 2012).
38
   These 481 owners were not case violators and had authorized stores prior to their permanent disqualifications.
39
   FNS Handbook Section 410 (A)(4).
40
   FNS Handbook 318 Section 1340(B)(3).
41
   SOP 4-5, updated in May 2011.

                                                                        AUDIT REPORT 27601-0001-31                  19
the owner’s banking account, the owners are likely to financially benefit from the trafficking,
whether they were directly involved or not.

FNS does provide an alternative to permanent disqualification in certain circumstances. When a
firm is caught trafficking, it may be allowed to pay a trafficking civil money penalty in lieu of
disqualification. The firm must demonstrate four criteria in order to be eligible: have an
effective compliance policy, prove that the compliance policy was in place prior to the
occurrence of the violations, develop an effective personnel training program, and show that the
firm owners or management were not aware of, did not approve of, or did not benefit from the
trafficking.42 While this provision could provide a reasonable alternative to permanent
disqualification for owners of multi-unit firms that are truly unaware of their employees’
fraudulent actions, the mention of "benefit" in the criteria poses a problem to its application.
Because all SNAP reimbursements are directly deposited into owners' accounts, it would be
extremely difficult for owners to produce documentary proof that they did not "benefit" from the
trafficking, as their accounts would receive all the proceeds of the trafficking. We believe that,
in order to have a viable alternative in place for multi-unit owners who are subject to a
permanent disqualification, FNS should issue a definition of "benefit" that would allow for
owners to demonstrate that they did not benefit from any trafficking that occurred.

In conclusion, FNS should initiate regulatory changes to ensure permanently disqualified owners
are not allowed to reenter the SNAP program at new locations. To address the heightened risk of
repeat instances of fraud, these regulatory changes should require FNS to permanently disqualify
store owners at all SNAP locations if they do not meet the revised criteria for a civil money
penalty in lieu of permanent disqualification.

Recommendation 8
Issue a definition of “benefit” that would allow for owners to demonstrate that they did not
benefit from any trafficking that occurred, and are therefore eligible for a civil money penalty in
lieu of disqualification.

Agency Response
FNS agrees to initiate a proposed rule that includes a definition of “benefit” that would
allow store owners to demonstrate that they did not benefit from trafficking.

In subsequent correspondence, FNS stated that actions required for this recommendation will be
completed by September 30, 2014.

OIG Position
We accept FNS’ management decision.



42
     FNS Handbook 318, Section 1080 (D)(3)(a-d).

20        AUDIT REPORT 27601-0001-31
Recommendation 9
Revise regulations and policy to permanently disqualify retail store owners at all authorized
retail locations operated by that owner(s) if the owner(s) does not meet the criteria to receive a
trafficking civil money penalty in lieu of permanent disqualification.

Agency Response
FNS is supportive of the goal of this recommendation. With this goal in mind, FNS recommends
carrying the premise of Recommendation 6 to Recommendation 9; i.e. FNS agrees to initiate a
proposed rule that would require that an owner with multiple locations that has any one of their
locations permanently disqualified for trafficking have a vested interest, such as a collateral bond
or letter of credit, which would cover all remaining SNAP authorized locations. FNS will
consider the best option for determining an appropriate, scalable bond or letter of credit amount.
If additional violations occur, the bond or letter of credit would be forfeited. The required work
plan to initiate this proposed rule will be completed in fiscal year 2014.

OIG Position
We are unable to agree with FNS’ proposed corrective action for this recommendation. We
believe that continuing to allow known traffickers to participate in SNAP will undermine
program integrity. We do not accept FNS’ alternative corrective action to have a vested interest,
such as a collateral bond or letter of credit. Specifically, FNS has agreed to change the definition
of "benefit" as described in Recommendation 8, and can define "benefit" with its own criteria
and evidence requirements.

In order to reach management decision, FNS needs to initiate a proposal to revise its regulations
and policies to permanently disqualify retail store owners at all authorized retail locations
operated by that owner(s) if the owner(s) does not meet the criteria to receive a trafficking civil
money penalty in lieu of permanent disqualification.

Recommendation 10
After regulations are revised, notify the 586 store owners that in the future, any trafficking
violation will require the store owner to qualify for and pay an in lieu of permanent
disqualification penalty or be subject to permanent disqualification at all store locations currently
authorized for that owner.

Agency Response
FNS concurs with the goal of this recommendation. If we are able to achieve the policy changes
described in Recommendation 9, the agency agrees to take action consistent with the policy
change. Any actions would be taken within one year of the effective date of the final rule. In the
interim, and by September 30, 2013, FNS will notify these retailers to ensure they are fully aware
of their status and that they are being watched closely as a result of their previous transgressions.


                                                              AUDIT REPORT 27601-0001-31         21
OIG Position
We are unable to agree with FNS’ proposed corrective action because it is contingent on
Recommendation 9. In addition, FNS disputes the amount of SNAP benefits redeemed by the
586 store owners, as reported in Exhibit A, Summary of Monetary Results. FNS needs to clarify
how the $65.3 million in Exhibit A is incorrect. Exhibit A only states that during the period
cited, these retail stores redeemed $65.3 million in SNAP benefits. If FNS has another
redemption amount for those 586 retailers during that period, please provide it.

In order to reach management decision for this recommendation, FNS needs to reconsider its
position on Recommendation 9, and provide supporting information regarding any reservations
FNS has on how we calculated the amount in Exhibit A.

Recommendation 11
Initiate the regulatory changes necessary to ensure owners that have been permanently
disqualified for trafficking are not granted authorization as a SNAP retailer at new locations.

Agency Response
When the owner of a single store is permanently disqualified, subsequent SNAP authorization
is not granted at a new location. However, as this relates to the owners of multiple stores that
have one or more stores disqualified, FNS concurs with the goal of this recommendation.

FNS recommends that the alternative suggested in recommendation 9 be applied here as well.
Statutory change would be required in this instance; i.e. owners of multiple stores that have one
or more stores disqualified would be required to have a vested interest, such a bond or letter of
credit, which would cover a newly authorized SNAP location that has not been deemed a
replacement store for a previously permanently disqualified location. FNS will consider the best
option for determining an appropriate, scalable, bond or letter of credit amount. FNS agrees to
initiate pursuit of this statutory change. The timeframe is contingent on opportunities to pursue
statutory change (i.e. via the Farm Bill).

OIG Position
We are unable to agree with FNS’ proposed corrective action for this recommendation. We
believe that continuing to allow known traffickers to participate in SNAP will undermine
program integrity. Specifically, FNS has agreed to change the definition of "benefit" as
described in Recommendation 8, and can define "benefit" with its own criteria and evidence
requirements for owners. However, if an owner cannot prove his/her innocence and does not
qualify for a trafficking civil money penalty in lieu of permanent disqualification, the owner
will—by default—be considered a trafficker. We cannot accept FNS' proposal to allow such an
owner to receive new SNAP authorizations for additional stores, even if he/she is required to
establish vested interests before receiving the authorization.



22     AUDIT REPORT 27601-0001-31
In order to reach management decision, FNS needs to initiate a proposal to revise its regulations
and policies to permanently disqualify retail store owner(s) from having any new store
authorized for SNAP if the owner(s) does not meet the criteria to receive a trafficking civil
money penalty in lieu of permanent disqualification.




                                                            AUDIT REPORT 27601-0001-31         23
Section 2:  FNS Retailer Authorization and Enforcement 
Finding 4: Retailers Circumvented Permanent Disqualification
From our sample of 316 locations, we identified 51 permanently disqualified retail store owners
who circumvented their disqualification by transferring ownership of their stores to a spouse,
relative, co-habitant, prior employee, or manager. This occurred because FNS did not establish
adequate guidance and management controls to ensure that staff reviewed authorization and
compliance documentation (see Finding 1). Also, some documentation for the previously
disqualified owner is the responsibility of the compliance division, while the authorization
division is responsible for documents pertaining to the new owner's application. Since the
compliance files are held at various locations, staff have difficulties obtaining the documents
needed for a comprehensive review. As a result, we found that the ineligible store owners
redeemed over $5.3 million in SNAP benefits.

FNS can deny an applicant who is attempting to circumvent disqualification by selling the firm
to a spouse or relative living with the applicant.43 FNS guidance also permits denial if there is
evidence of an attempt to circumvent a period of disqualification, or any other evidence
reflecting on the business integrity or reputation of the applicant firm.44 FNS' new high-risk
procedures call for more documentation to better identify associations with prior owners (see
Finding 6). However, these procedures do not require a supervisory review to ensure documents
obtained were adequately evaluated by staff prior to authorization.

Of the 51 owners we identified, 25 circumvented disqualification by transferring ownership of
the store to a spouse, relative, or co-habitant. We identified co-habitants by comparing addresses
on different documents. For example, one permanently disqualified owner in Detroit, Michigan,
transferred ownership to his wife, who is currently authorized. FNS staff were aware of this at
the time of authorization, yet still authorized the wife because they did not believe it was a case
of circumvention. They were unaware that, under FNS regulations, a transfer of ownership to a
spouse is deemed to be an attempt to circumvent disqualification.

Of these 25, we found such instances as a permanently disqualified son "gifting" a store to his
father, who also served as the manager of the store under the son's ownership.45 Another owner
in Reading, Pennsylvania, was temporarily disqualified and transferred ownership to his brother.
The brother then became permanently disqualified, and transferred ownership back to his
previously temporarily disqualified brother, who is now authorized. The second owner had
submitted documents at the time of his authorization that explicitly stated he was obtaining the
store from his brother. FNS officials admitted that, at the time the retailers were authorized, they
were not as vigilant in their review of ownership connections as they are now. Their priority was
reviewing store eligibility and food stock, rather than identifying circumvention.


43
   FNS Handbook 318 Section 410 (A) 2(b).
44
   FNS Handbook 318 Section 320 (B).
45
   FNS staff deemed this a legitimate transfer, but admitted they did not review the documents as thoroughly as
usual, as the authorization occurred during the transfer penalty moratorium (see Finding 5). The father continues to
benefit from SNAP redemptions.

24      AUDIT REPORT 27601-0001-31
The remaining 26 owners circumvented disqualification by either transferring ownership of the
store to a manager or employee of the permanently disqualified store, or by becoming an
employee of the currently authorized store. One location in Bronx, New York, had managers of
the permanently disqualified store become the owners of the next authorized store on two
occasions. FNS staff stated they do not request employee or manager information from retailers,
because it may frequently change. We agree that keeping up-to-date with all employees would
pose a burden to both FNS and store owners. However, we were able to identify these
associations from information FNS already had in its authorization and compliance files, such as
store visit consent forms, applications, drivers licenses, affidavits, bills of sale, or other
documentation. FNS stated that during authorization, they do not typically review the
permanently disqualified owner’s file to obtain employee information because the available
documents in STARS center on the owner and not the employees.

Even if FNS mandated that such reviews be completed, authorization staff would find it difficult
to obtain ownership documentation related to the previously disqualified stores. These files are
maintained by the compliance division and may not always be located in the same office, or may
be archived. As a result, we found that the only information FNS authorization staff consistently
reviewed was what was available in STARS. However, this information for a new authorization
is limited, and STARS does not contain all documents from the permanently disqualified
owners’ files.

Therefore, for high-risk locations with a previously disqualified owner, we believe FNS should
require staff to scan and upload all compliance documentation into STARS or another automated
system for easier review by authorization staff.46 This change would also facilitate our
recommendation to add functionality to STARS that would suspend authorization of high-risk
locations with a previously disqualified owner until all information is reviewed by an FNS
employee, and then certified by a supervisor. Since authorization staff are not always familiar
with methods for identifying circumvention, FNS should begin a training program to familiarize
them with the new documents available electronically and on how to conduct effective reviews.
Such measures would ensure that FNS staff have the tools they need to sufficiently detect and
prevent fraud via circumvention.

Recommendation 12
Require all compliance documentation associated with a permanent disqualification to be
scanned and uploaded into STARS or another automated system.

Agency Response
This effort was underway as a part of the Retailer Management Modernization prior to this
audit. FNS began to define workflows, business requirements, and online solutions in the fall
of last year. FNS will be engaged in detailed requirements gathering and system design in
2014 and will have an electronic retailer filing system in place by the end of calendar year 2015.

46
  Scanning and uploading compliance documentation would be limited to only those high-risk locations with a
permanent disqualification. FNS permanently disqualifies approximately 1,200 to 1,400 owners annually.

                                                                     AUDIT REPORT 27601-0001-31               25
In subsequent correspondence, FNS stated that actions required for this recommendation will be
completed by December 31, 2015.

OIG Position
We accept FNS’ management decision.

Recommendation 13
Establish and implement internal controls that would prevent authorization and reauthorization
of high-risk locations with a previously disqualified owner until all associated compliance
information is reviewed by the program specialist and certified by the supervisor.

Agency Response
FNS agrees with this recommendation and actions were already on-going prior to this audit.
The following are complete:

     ·   Staff is required to review Store Tracking and Redemption system high-risk flags and
         obtain information to clear flags before an authorization or reauthorization
         determination is made.

     ·   Extensive documentation must be obtained and reviewed before a high-risk
         application can be considered complete and processing can begin, or the SNAP
         reauthorization can be completed.

     ·   If an applicant-retailer does not provide the required high-risk documentation, the
         application is withdrawn.

     ·   In the case of reauthorization, failure to provide required documentation results in
         withdrawal.

     ·   Weekly calls and random reviews of high-risk applications and reauthorizations are
         being conducted to ensure standard operating procedures are being followed in a
         consistent and appropriate manner.

     · A quality assurance team is being hired and trained; in fiscal year 2014 this team will add
         another quality check to retailer processes.

In subsequent correspondence, FNS stated that actions required for this recommendation were
completed May 31, 2013.

OIG Position
We accept FNS’ management decision.

26       AUDIT REPORT 27601-0001-31
Recommendation 14
Develop a specialized nationwide training program to assist authorization personnel in
identifying associations between new applicants and permanently disqualified owners that would
result in a circumvention determination.

Agency Response
FNS has already developed a nationwide training program. Weekly calls are held to discuss
consistency in procedures, address training needs and raise policy questions. These weekly
sessions have included bona fide transfer of ownership procedures and high-risk store processing
and documentation requirements.

As described in the FNS response to Recommendation 1, the Retailer Operations Division has
implemented nationwide training for staff who review all high-risk stores and not only for those
involving a prior disqualified owner. The training has been developed by both the Retailer
Operations Division and the Retailer Policy and Management Division, which ensures
consistency in the training. These trainings have included sessions on topics such as reviewing
and clearing system flags for high-risk stores, and reauthorizing high-risk stores.

Additional training will be held before the end of fiscal year 2013 on topics such as the
methodology for reviewing legal documents and affidavits, and the use of public websites for
obtaining state licensing, property, and tax assessments that can be used to verify information
provided by high-risk stores.

In subsequent correspondence, FNS stated that actions required for this recommendation were
completed June 30, 2013.

OIG Position
We accept FNS’ management decision.

Recommendation 15
Review all 51 permanently disqualified owners to determine whether the transfers of ownership
circumvented disqualification and take the appropriate corrective action.

Agency Response
FNS has completed reviews of these 51 instances and is taking appropriate corrective action.
The following results are current as of June 20, 2013:

   ·   18 owners circumvented a permanent disqualification and are being involuntarily
       withdrawn for lack of business integrity.
   ·   13 owners circumvented a previous permanent disqualification, but are no longer on the
       program due to involuntary or voluntary withdrawal.
                                                            AUDIT REPORT 27601-0001-31            27
     ·   9 owners were permanently disqualified for falsification (1 is currently in judicial
         review).
     ·   3 owners are currently under an open Retailer Investigations Branch case.
     ·   1 owner was permanently disqualified for trafficking.
     ·   1 owner received a less than permanent disqualification (currently under administrative
         review).
     ·   1 owner received a less than permanent disqualification, but the decision was overturned
         on judicial review.
     ·   1 owner’s withdrawal for circumvention was overturned on administrative review.
     ·   4 of the OIG determinations were determined to be speculative as the OIG work papers
         did not clearly identify that circumvention had taken place. FNS will conduct a more in-
         depth review before clearing these cases.

OIG Position
We accept FNS’ management decision.




28       AUDIT REPORT 27601-0001-31
Finding 5: FNS is Not Consistently Imposing Penalties on Retailers
From our sample of 316 retail locations, we found that FNS did not adequately evaluate the cases
of 188 permanently disqualified store owners who sold or transferred their businesses to
determine if a transfer of ownership civil money penalty (transfer penalty) was warranted. Of
these 188 store owners, 64 should have received a transfer penalty, but did not. For the
remaining 124 owners, FNS had not obtained sufficient documentation to support a
determination that a legitimate transfer had actually occurred, or when it occurred. Therefore,
FNS was unable to determine whether a transfer penalty could be applied. This occurred
because FNS' authorization and compliance divisions did not have clear roles and
responsibilities, which resulted in the divisions not completing steps necessary to identify
whether transfer penalty circumstances were present in a new application (see Finding 1). While
FNS does have a mechanism in STARS to identify circumstances that may warrant a transfer
penalty, the mechanism does not contain a control to suspend authorization until a receivable is
recorded in FNS' accounting system or Headquarters receives documentation supporting that the
penalty is not appropriate. As a result of these issues, FNS did not impose approximately
$2.3 million in penalties, and missed the opportunity to impose a potential maximum of
$4.4 million in estimated penalties.47 Because FNS penalties for permanent disqualification are
applied inconsistently, their utility as a deterrent against trafficking risks is diminished.

FNS regulations state that if a retail store is disqualified from SNAP and the store is sold or
transferred after that disqualification, the permanently disqualified owner is liable for a penalty
reflecting the portion of the disqualification period not yet expired.48 FNS staff must examine
supporting documentation—such as the bill of sale, sales contract, or deed—to determine
whether a legitimate transfer occurred between the current applicant and the prior, permanently
disqualified owner. If the transfer was legitimate, then a transfer penalty will apply. Penalties
are limited, and FNS reports the average transfer penalty is $35,763.49 Also, FNS has the
authority to request additional documents from retailers when those submitted are not adequate
to make a determination.

FNS personnel did not obtain sufficient documentation to determine if a legitimate transfer
occurred between the current applicant and the previous permanently disqualified owner,
resulting in the 124 cases with uncertain applicable penalties. In other situations, FNS did obtain
the required documentation from the applicant, but did not levy the appropriate penalties.

Specifically, FNS had sufficient documentation that clearly showed a legitimate transfer of
ownership had occurred for 37 permanently disqualified owners; however, FNS staff did not
impose a transfer penalty on them. Officials said that these were staff oversights, and did not
provide further explanation. FNS also had adequate documentation to conclude that a legitimate
transfer occurred for another 27 permanently disqualified owners, but FNS staff did not impose a
transfer penalty because FNS' national office placed a moratorium on the process from

47
   $6.7 million is calculated by multiplying 188 identified transfers of ownership by the FNS average fine of
$35,763.
48
   7 CFR 278.6(f)(2).
49
   On August 9, 2012, FNS reported in their proposed Retailer Sanctions rule the average transfer penalty is
$35,763.

                                                                        AUDIT REPORT 27601-0001-31              29
February 2007 until April 2009.50 When the moratorium was lifted, the FNS national office
instructed staff to revisit authorizations for transfers that occurred during the moratorium and
determine whether transfer penalties should be applied.51 However, many offices did not
perform a review of authorizations completed during the moratorium. These offices stated they
were aware of the opportunity to revisit authorizations during the moratorium, but did not have
the time to review them. They said they would review them in the future, as time permits.

The following examples show how, in some locations, ownership was transferred multiple times
after each subsequent owner was permanently disqualified for trafficking (for more on store
locations with repeated trafficking problems, see Finding 2). One store location in Miami,
Florida, was initially authorized to participate in SNAP in July 1993, and the owner was
permanently disqualified in May 1996. This same store had 5 subsequent owners that were each
authorized and permanently disqualified from 1996 through October 2010. No transfer penalties
were applied, and the store is still authorized and redeeming benefits. Using the average fine
identified by FNS, the potential recovery for this store location would have been $214,578.52
Another store in Paterson, New Jersey, was authorized to redeem SNAP benefits in
October 2006. This store’s owner was permanently disqualified in November 2007. This
location subsequently had three permanently disqualified owners that transferred ownership of
the store after they were no longer allowed to participate in SNAP. Using the average penalty
amounts, FNS did not apply $143,052 in penalties.

Given the high amount of potential transfer penalties that were not sufficiently determined, we
believe FNS should create an additional control within STARS. Currently, STARS does provide
a flag when a new authorization is being processed and the business in question had a previous
owner that was permanently disqualified. The flag prompts staff to obtain and review additional
documentation to establish that the transfer was legitimate. FNS should establish a mechanism
that would automatically suspend an authorization until a transfer penalty determination is
completed. Also, to address the issues identified in this finding, FNS should review the
188 owners identified and determine if transfer penalties are warranted.


Recommendation 16

Establish a mechanism to suspend authorization of the retail location until a transfer of
ownership civil money penalty receivable is recorded in the accounting system, or
documentation is provided to Headquarters supporting that the penalty is not appropriate.

Agency Response
FNS does not agree that it is necessary to establish a new process. FNS already has a
mechanism that requires suspending the authorization of a retailer location until appropriateness


50
   This moratorium was put into place so that USDA’s Office of the General Counsel could determine the legality
of such a penalty.
51
   FNS, Transfer of Ownership Civil Money Penalty Moratorium email, April 14, 2009.
52
   This amount is calculated by multiplying the total disqualifications (6) by the average fine ($35,763).

30      AUDIT REPORT 27601-0001-31
of a transfer of ownership civil money penalty is fully assessed by the retailer operations staff.
The process in place ensures:

   ·   Until a determination is made as to whether there has been a legitimate transfer
       of ownership, the applicant owner cannot be authorized.
   ·   If the sale or transfer of the business is not legitimate, the applicant owner must be
       denied. If the sale or transfer is legitimate, then applicant is approved and the
       former owner is billed for the transfer of ownership civil money penalty amount.

FNS continues to focus on staff training to ensure these steps are followed. In addition, a
STARS enhancement will be rolled out in August of 2013 that will require FNS staff to
document (in STARS) the specific reasons for why a transfer penalty was or was not assessed.
Automated emails will be generated by STARS when an application for a disqualified location is
authorized, to notify the appropriate staff of the need to evaluate the disqualified owner for a
potential transfer penalty.

OIG Position
We are unable to reach management decision on this recommendation. While we agree with
FNS’ actions to strengthen controls and provide additional training to staff for administering
penalties, the response does not indicate whether FNS would establish the mechanism described.
Because we found gaps in FNS’ administration of transfer penalties at all levels, we believe a
specific mechanism, similar to what is described in the recommendation, is necessary to ensure
that transfer penalties are applied fairly and consistently. In order to reach management decision,
FNS needs to establish a mechanism to suspend authorization of the retail location until a
transfer of ownership civil money penalty receivable is recorded in the accounting system, or
documentation is provided to Headquarters supporting that the penalty is not appropriate. If FNS
does not believe that such a mechanism is the best solution, FNS needs to provide OIG with an
alternative action that will achieve sufficient assurance that transfer penalties are assessed.

Recommendation 17
Review the 188 owners permanently disqualified for trafficking that subsequently transferred
ownership to determine whether transfer of ownership civil money penalties should be imposed.
If penalties are appropriate, establish and pursue collections of all penalties.

Agency Response
To date, FNS has reviewed 37 owners that OIG says should have been assessed a Transfer of
Ownership Civil Money Penalty (TOCMP):

   ·   4 have already been assessed a TOCMP.
   ·   28 are being referred to the Investigative Analysis Branch to calculate the
       correct assessment and issue the TOCMP.
   ·   5 have been determined not to warrant a TOCMP, but will be referred to the Investigative
       Analysis Branch to conduct a secondary assessment.

                                                              AUDIT REPORT 27601-0001-31             31
OIG noted an additional 27 retailers should have been subject to a TOCMP but at the time of
the store sale, a moratorium had been placed on TOCMP assessment. This is accurate. The
Agency was working through a significant policy question related to TOCMP’s with our legal
counsel. Once the moratorium was lifted, SNAP directed retailer operations staff to forgo the
TOCMP assessments due to the time-gap that had occurred for both resource reasons and
because these were deemed difficult to justify. No further action will be taken with regard to
these locations; however, the Store Tracking and Redemption System will be appropriately
updated no later than September 30, 2013.

An additional 124 owners are currently under review. FNS expects to complete this review and
take appropriate action before the end of fiscal year 2013.

OIG Position
We are unable to accept FNS’ proposed corrective action. In order to reach management
decision, FNS needs to provide OIG with supporting documents and the decisions it made on
each of the cited 188 owners permanently disqualified for trafficking. FNS also needs to provide
a copy of the demand letter for transfer penalty collection owed to the Government, and evidence
that the amount (1) has been entered as a receivable on the agency’s accounting records, or
(2) has been collected. In regards to the moratorium, FNS needs to provide a copy of the
directive and explain the authority it operated under to allow FNS staff to forgo assessments of
27 transfer penalties applicable during the moratorium. To clarify, FNS provided the audit team
with guidance from Headquarters that authorized regional offices to go back and assess transfer
penalties held in abeyance during the moratorium.




32     AUDIT REPORT 27601-0001-31
Finding 6: FNS Did Not Follow Its Own Procedures for Initially Authorizing
High-Risk Retail Locations
FNS personnel did not adhere to new policy for initial authorization of high-risk retail stores for
25 out of 95 locations in our high-risk sample. Specifically, FNS personnel did not perform a
System for Award Management search and obtain tax returns, notarized affidavits, and all
applicable business licenses. Also, personnel did not complete the new requirement of checking
with outside agencies (referred to as collateral contacts) for further information on the stores.
Finally, when they did obtain required documents, FNS personnel did not adequately review
them. This occurred because supervisors were not required to conduct reviews of initially
authorized high-risk retail stores to ensure that personnel adhered to the updated procedures and
obtained all applicable documentation. As a result, FNS cannot be assured that owners of
initially authorized high-risk retail locations are qualified for the program and not associated
with permanently disqualified owners. Six stores had previous permanently disqualified owners
that were not assessed a transfer penalty (see Finding 5), while another store owner circumvented
disqualification (see Finding 4).

FNS implemented new procedures for applicants of high-risk stores on January 31, 2012.
According to the new policy, a store is high-risk if any previous permanent disqualification
occurred at that location. FNS now requires that program personnel secure copies of specific
documentation, including, but not limited to, tax returns, notarized affidavits, and all applicable
business licenses. The policy also requires FNS personnel to make collateral contacts, and
review the documentation obtained to ensure that the owners listed on the application have not
been previously disqualified, or are not associated with the previous permanently disqualified
owners.53 We randomly selected 95 out of over 1,100 high-risk stores authorized since
February 1, 2012, and found FNS personnel did not adhere to new policy for initial authorization
for 25 out of the 95 locations.

These oversights occurred because supervisors were not required to conduct reviews to ensure
that personnel adhered to the updated procedures. There is also no requirement to upload the
documents obtained during the high-risk procedures into STARS, which would facilitate such
reviews. Also, personnel responsible for authorization did not ensure the information was
received and reviewed appropriately—for instance, a proper review would have identified that
one of the new applicants was associated with the previous permanently disqualified owner.
FNS officials stated that personnel were not yet acclimated to the new procedures. After we
identified this issue, officials said that they would provide additional guidance to regional offices
on how to utilize the new procedures.

We believe this additional guidance will be helpful to bring awareness and clarification to FNS
staff. However, we note that the requirement to make collateral contacts is more complex than
seeking additional documentation from applicants. To effectively implement that requirement,
FNS must build relationships with outside agencies across the country. Since FNS is
centralizing its retailer division into a single national unit that would handle all authorizations,
we are concerned that FNS staff may not be able to maintain sufficient local contacts, and may

53
     FNS Benefit Redemption Division Policy Memo 2012-01, issued January 31, 2012.

                                                                     AUDIT REPORT 27601-0001-31    33
not be able to quickly and effectively obtain the information they need from collateral contacts.
Therefore, we are recommending that FNS enter into Memoranda of Understanding with outside
licensing agencies, both to facilitate information sharing and to ensure a formal relationship with
reliable points of contact for FNS staff researching high-risk stores.

Beyond facilitating the high-risk authorization procedures, Memoranda of Understanding could
provide both parties with valuable information and support. For example, during our field work,
we interviewed a State alcohol commission that also investigates and authorizes retailers. This
agency conducted a raid on a store and found several EBT cards stashed behind the counter.
However, the agency did not know whom to contact for further investigation of the cards. This
agency said it would be eager to share information with FNS and enter into a formal agreement.

We also found that many agencies, such as gaming commissions that regulate the sale of lottery
tickets, already require criminal background checks for store owners before the issuance of
required licenses. Different agencies require different levels of background checks, with some
being quite thorough by checking all associated owners and their spouses. Obtaining this
information would help FNS in determining if transfers are legitimate, as the outside agencies
may have more information on a permanently disqualified owner's associates.

In conclusion, FNS should conduct a nationwide review of high-risk locations to gain a better
understanding of current compliance levels with the new policy, and take corrective actions, as
necessary. FNS also needs to develop and implement internal controls to ensure personnel are
following high-risk authorization procedures, such as supervisory reviews. Finally, FNS should
formalize and strengthen its relationships with State agencies responsible for monitoring
retailers. Taken together, these measures should make FNS' high-risk procedures more effective
at identifying and preventing fraud.

Recommendation 18
Develop and implement internal controls to ensure that personnel are following the updated
high-risk authorization procedures issued on January 31, 2012. In addition, the personnel
responsible for authorization should ensure the information required is received, uploaded into
STARS or another automated system, and reviewed appropriately.

Agency Response
FNS has already completed the actions recommended. The FNS High Risk Policy memo was
issued January 31, 2012 and the audit sample of 95 retail store locations included stores that
were authorized as early as February 1, 2012. Based on that sample, the OIG audit team
noted 25 stores with errors.

     •    This finding does not reflect OIG audit team discovery of straw ownership
          or circumvention.
     •    This finding reflects oversights in collection of business licenses.
     •    Though training was conducted immediately following release of the high-risk policy,
          the policy was implemented for retailer applicants on a going forward basis, with

34       AUDIT REPORT 27601-0001-31
         annual reauthorization to capture issues with participating retailers.

In January 2013, the high-risk policy memo and checklist that accompanies the policy memo
were updated to provide additional guidance for staff. Specifically, if the SNAP application
indicates that non-food items requiring State/local licenses are sold (i.e., liquor, tobacco,
lottery), copies of those licenses are required prior to SNAP authorization.

FNS has implemented internal controls including random supervisory review of high-risk
applications and reauthorization to ensure that all staff adheres to current policy.

In subsequent correspondence, FNS stated that actions required for this recommendation were
completed January 3, 2013.

OIG Position
We accept FNS’ management decision.


Recommendation 19

Conduct a thorough review of high-risk retail locations authorized for SNAP to determine
whether the new procedures have been followed on a national level. If problems are identified,
take appropriate corrective action.

Agency Response
FNS has already completed the actions recommended. The FNS Retailer Operations Division
has already built such a review into the ongoing internal-review process. Appropriate
follow-up actions will be taken based on findings from these reviews.

Once fully established in FY 2014, the Retailer Policy and Management Division Quality
Assurance Branch will include review of high-risk locations in their review portfolio as well.

In subsequent correspondence, FNS stated that actions required for this recommendation were
completed June 7, 2013.

OIG Position
We accept FNS’ management decision.

Recommendation 20
Establish Memoranda of Understanding to the extent allowed by law with State licensing
agencies, such as alcohol, gaming, and tobacco, to obtain background information about retail
owners.


                                                              AUDIT REPORT 27601-0001-31         35
Agency Response
FNS does not agree with this recommendation. It is unclear that the resource requirement
necessary for building such an extensive network of agreements with individual licensing
bureaus in all the States is an effective approach. Not all State licensing agencies have
information that accurately reflects current ownership (for example, in early 2012 the New York
State alcohol licensing agency was experiencing a 2 years lag in application processing).

Instead, FNS has a process underway to obtain industry input on how to better gather owner
information for the purpose of reviewing high-risk stores applying for authorization. FNS
believes data broker arrangements would be more efficient than hundreds of State licensing
agreements. This process will be completed by the end of calendar year 2014.

In subsequent correspondence, FNS stated that actions required for this recommendation will be
completed by September 30, 2014.

OIG Position
We accept FNS’ management decision.




36     AUDIT REPORT 27601-0001-31
Scope and Methodology 
We performed our audit fieldwork from April 2012 through February 2013 at FNS Headquarters
in Alexandria, Virginia, six regional offices54 across the nation, and one field office in
Sacramento, California. Our review focused on the controls FNS has implemented to ensure that
disqualified retailers are not reentering SNAP, and assessed recent actions taken by FNS in
response to OIG recommendations and the Scripps Howard News Service report.

To accomplish our objectives, we performed the following audit procedures at FNS
Headquarters, regional, and field offices:

     ·   Interviewed the appropriate officials to ascertain the controls in place to authorize,
         reauthorize, and disqualify retail stores.

     ·   Reviewed written policies and procedures that FNS provided to the regional and/or field
         offices for the initial authorization of retailers, disqualification of retailers, and the
         reauthorization of retailers that were previously permanently disqualified from
         participating in SNAP.

     ·   Assessed whether the controls established are sufficient to prevent disqualified retailers
         from reentering SNAP.

     ·   Identified and reviewed FNS regulations, policies, and procedures in place applicable to
         conducting site visits to retail stores prior to authorization and during the reauthorization
         process.

     ·   Evaluated the results of the Scripps Howard News Service report, including FNS’ review
         of the report.

     ·   Obtained FY 2011 program universe data on the number of permanently disqualified
         firms and FY 2012 program universe data on the number of authorized stores.

     ·   Reviewed electronic and paper retailer files for 316 sample locations.

     ·   Analyzed electronic data for 586 retail store owners with permanent disqualifications that
         have authorized stores at other locations redeeming SNAP benefits.

We obtained the listing of the 36 retail locations Scripps Howard News Service provided to FNS
as possible banned owners still redeeming SNAP benefits, but only reviewed 35. 55 FNS
provided us with a listing of over 1,100 high-risk retailers that had been initially authorized since
February 2012, when the new high-risk procedures were implemented. We also obtained a

54
   Mid-Atlantic Region in Robbinsville, New Jersey; Midwest Region in Chicago, Illinois; Mountain Plains Region
in Denver, Colorado; Northeast Region in Boston, Massachusetts; Southeast Region in Atlanta, Georgia; and
Southwest Region in Dallas, Texas.
55
   One file was sent to OIG Investigations, so we were unable to review it.

                                                                     AUDIT REPORT 27601-0001-31             37
listing of over 232,000 stores currently authorized to redeem SNAP benefits. FNS provided a
list of the nearly 4,600 retailers that have been permanently disqualified from January 2006 to
June 2011. We conducted a match, based on location, of the currently authorized stores and
permanently disqualified stores, which resulted in 1,686 locations. We then took a non-statistical
random sample of 114 locations to review. We filtered the permanently disqualified retailers list
to show those locations with multiple disqualifications, which resulted in 129 locations. We then
selected 72 currently authorized locations to review. Finally, we randomly selected 95 high-risk
locations that were authorized since February 2012 to review. Our review of FNS retailer files
consisted of 316 locations.56 Finally, FNS provided a list of 586 retail store owners with
permanent disqualifications that have authorized stores at other locations redeeming SNAP
benefits. We conducted an analysis on all 586 retail store owners.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




56
  This includes 35 samples based on Scripps Howard reporting, 114 samples from matches we performed on store
location, 72 samples of currently authorized locations that had multiple disqualifications in the past, and 95 samples
of high-risk locations.

38      AUDIT REPORT 27601-0001-31
Abbreviations 
ALERT .................... Anti-Fraud Locator using EBT Retailer Transactions Database
EBT ......................... Electronic Benefit Transfer
FNS ......................... Food and Nutrition Service
FY............................ Fiscal year
OIG.......................... Office of Inspector General
SNAP ....................... Supplemental Nutrition Assistance Program
STARS……………..Store Tracking and Redemption System
TOCMP ................... Transfer of Ownership Civil Money Penalty
USDA ...................... Department of Agriculture




                                                             AUDIT REPORT 27601-0001-31   39
Exhibit A: Summary of Monetary Results 

Finding
             Recommendation           Description          Amount               Category
  No.
                               Permanently
                               disqualified owners
                               for trafficking were
                               allowed to redeem                            Questioned Costs
     3             10          SNAP benefits.              $65,300,000       No Recovery
                               Permanently
                               disqualified retail store
                               owners circumvented
                               their disqualification
                               by transferring                              Questioned Costs
     4             15          ownership.                   $5,300,000       No Recovery
                               FNS did not always
                               determine if a transfer
                               of ownership civil                        Funds to Be Put to Better
                               money penalty was                            Use: Management
     5             17          warranted.                   $6,700,000       Improvements




40       AUDIT REPORT 27601-0001-31
Agency's Response 




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27601-0001-31   41
United States
Department of
                 DATE:          July 16, 2013
Agriculture
                 AUDIT
Food and
Nutrition
                 NUMBER:        27601-0001-31
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                                Office of Inspector General
Alexandria, VA
22302-1500
                 FROM:          Audrey Rowe /S/
                                Administrator
                                Food and Nutrition Service

                 SUBJECT:      FNS: Controls for Authorizing Supplemental Nutrition Assistance Program
                               Retailers

                 This letter responds to the Office of Inspector General (OIG) official draft report for audit
                 report number 27601-0001-31, FNS: Controls for Authorizing Supplemental Nutrition
                 Assistance Program Retailers. Specifically, the Food and Nutrition Service (FNS) is
                 responding to the content, recommendations and Exhibit A in the audit report.

                 FNS Response to the Introduction section of the audit report, “What OIG Found”:

                 FNS is disappointed that the audit’s broad findings did not make clear the substantive
                 work and change that was occurring and accomplished by the Agency during the audit
                 period regarding retailer management functions. While referenced briefly, the audit
                 does not reflect the significant discussion and updates provided by the Agency in
                 response to the auditors’ work during the period of the audit.

                 Specifically, we are concerned that the audit work was conducted at the time the FNS
                 retailer management function was undergoing a wholesale organizational change. The
                 retailer management function was centralized on January 1, 2013. This audit was
                 completed during 2012, while the organization was in the midst of this transition. At
                 the entrance conference, held April 2, 2012, the audit team was advised that FNS was in
                 the process of a major transition, and we suggested that a review of retailer controls
                 would be more appropriate once the transition was complete. Despite this request, and
                 fully aware of the reorganization, the audit team proceeded with their work. The
                 reorganization is acknowledged briefly in this document, but the general findings of this
                 report do little to recognize the vast and significant changes that were made and
                 initiated during the time of the audit, and continue to be fully implemented by the
                 Agency. It is most discouraging to note that the report does nothing to reflect the major
                 work that has been done since the initiation of the audit. For example, the
                 establishment of standard operating procedures that provide consistent processes with
                 clear lines of responsibility for all retailer management functions; the development of
                                                                                          Page |2


internal controls; and the plan for a quality assurance process integrated into the retailer
management function in fiscal year 2014.

It is also noteworthy to recognize that the number of retailer applications has increased
significantly over the last 5 years and, as a result, FNS retailer management teams were
appropriately focused on the authorization of retailers.
     • As of September 30, 2012, 246,565 firms were authorized to participate in SNAP, an
         increase of 41 percent over the last five fiscal years.
     • The authorization process is time-limited by regulation (i.e. FNS must make a decision
         on a completed retailer application in 45 calendar days).
     • FNS authorization staff diligently reviewed thousands of front end applications against
         enhanced high risk application review requirements; in fiscal year 2012, FNS saw a 67
         percent increase in the number of stores denied SNAP participation due to business
         integrity.

The data does not support the OIG audit contention that FNS lost focus on integrity. The
number of retailer compliance actions in fiscal year 2012 was the highest in recent years:
   • the owners of over 1,392 stores were permanently disqualified or sanctioned for
       trafficking violations,
   • 687 were sanctioned for lesser violations, and
   • 743 were warned for minor violations.

It is an inaccurate characterization of the current landscape to suggest that FNS has
inadequate authority to prevent multiple instances of fraud, either by a particular owner or
within a particular location. OIG appears to have intended this statement to reflect later audit
recommendations calling for pursuit of additional legislative authorities, recommendations
that FNS agrees with.

FNS would repeat our clarification that regulations were updated to equate coupons with EBT,
ensuring that all existing regulations continue to apply—in other words, references in
regulation to food stamp coupons have no impact on standard operating procedures, or retailer
management work assignments as indicated by OIG in this audit.

Additionally, OIG is aware that FNS has addressed several retailer compliance-related
concerns in recent rulemakings.
   • The final rule updating the definition of trafficking became effective on March 25,
       2013.
   • A proposed rule that would allow for expediting action against the most egregiously
       trafficking retailers closed on April 23, 2013; this rule also moves forward penalties
       and sanctions against owners who fail to report changes in ownership and who abuse
       the FOIA process.
   • A rule that revises retailer sanctions is on track for publication as a final rule in
       calendar year 2013; this rule will add significant monetary penalties to permanent
       disqualifications assessed against retailers who traffic, and raises the cap on monetary
       penalties.




                                 AN EQUAL OPPORTUNITY EMPLOYER
                                                                                          Page |3


The OIG audit team is also aware that OIG senior officials have confirmed that criminal
background checks via the National Crimes Information Center database, as recommended in
an earlier OIG audit, were outside the bounds of FNS authority. This understanding is not
appropriately reflected in “What OIG Found”.

OIG reports application of policy as errors, despite the Agency’s attempts to make the policy
clear. For example, OIG notes that they identified 586 owners who were allowed to continue to
participate in SNAP at other locations after being permanently disqualified. This is not an FNS
error. Unless an owner was directly involved in the trafficking of benefits, s/he may continue to
participate in SNAP at other locations. These locations, however, are deemed high risk and are
subject to annual reauthorization. Further, as to the 90 locations that had two or more
independent firms permanently disqualified, this is not an FNS error. FNS has no authority to
permanently bar a location from participation in SNAP; changes in ownership at a location do
have policy protections and OIG has made recommendations that FNS agrees with to strengthen
these protections.

The audit team reviewed information and files that pre-date the full gamut of enhanced high
risk retailer review. As we continue to address currently participating high risk retailers
through annual reauthorization, FNS expects that the vigorous level of review will identify
retailers who may require further action.

Unfortunately the OIG audit team did not consistently provide information regarding specific
retailer findings to FNS retailer management staff for immediate follow-up; as a result retailers
who OIG believed ineligible to participate in SNAP were allowed to remain authorized.
FNS is ever-vigilant with regard to SNAP integrity. The organizational realignment associated
with retailer management modernization affords us the ability to:
    • Bring greater efficiency to all retailer management processes,
    • Manage compliance nationally thereby enhancing FNS’ ability to prioritize and target
         compliance efforts, and
    • Further enhance tools that will compel consistent processes and procedures.

FNS continues to move regulations forward and to pursue statutory change where appropriate.

FNS would request the introduction be reworked to more correctly reflect these comments,
noting significant activities and efforts taken to gain efficiency, consistency, and improved
compliance as well as correction of those comments that are inconsistent with statutory
authority and regulatory policies.




                                 AN EQUAL OPPORTUNITY EMPLOYER
                                                                                          Page |4


FNS responses to the report’s recommendations:

Recommendation 1:

Review the handbook, SOPs, and regulations to ensure that they do not contradict one another
and provide a practical framework for authorization and enforcement actions using the EBT
system.

FNS Response:

FNS concurs with this recommendation and the corrective actions have been completed.

Review of the retailer management policy handbook, and standard operating procedures was
done prior to completion of this OIG audit.
    • National Standard Operating Procedures (SOPs) and policy memos are posted and
        accessible on the Agency intranet site.
    • Operational inconsistencies have been systematically identified and a process developed
        to eliminate their reoccurrence.
    • Roles and responsibilities relative to which organizational area is responsible for
        requesting high risk documentation, determining bona fide transfers, assessing transfer
        of ownership civil money penalties, and circumventions of prior disqualifications have
        been clearly identified.
    • Random supervisory reviews are conducted by Retailer Operations Division supervisors
        to insure that procedures are being followed in a consistent and appropriate manner
        using the SOPs.
    • Supervisors have weekly calls with their staff to discuss issues and ensure that the SOPs
        are being followed.
    • An Internal Controls Process team is:
             o Developing a secondary or supervisory review process to determine if critical
                points in the application process are being appropriately handled.
             o Identifying areas needing clarity to assist specialists in processing authorizations
                and cases.
            o Identifying potential weaknesses or gaps involving division of responsibility.
            o Recommending training needs for retailer staff.
    • The retailer management policy handbook has been deemed redundant and will be
        retired by September 30, 2013 in favor of issue-specific policy memorandums.
    • A Quality Assurance Branch is being formed to objectively identify and address retailer
        management issues. A quality assurance process will be integrated into the retailer
        management function in fiscal year 2014.

   Formal training has been provided to Retailer Operations staff on the following:

   •   January 10, 2013 – STARS 101: Enhancement Training
   •   January 15, 2013 – STARS and ALERT Training




                                 AN EQUAL OPPORTUNITY EMPLOYER
                                                                                         Page |5


   •   January 16, 2013 - SOP 4.3 EBT Case Analysis- Building a solid EBT case; building a
       solid Case Analysis Document; Retailer Replay /prep of sanction determinations; SOP
       4.4 thru 4.7; SOPS 4.1 and 4.2
   •   January 28-31, 2013 – Retailer Operations Branch Training – Provided an organization
       overview of the Retailer Operations Branch and the new Standard Operating Procedures
       to provide consistency and guidance
   •   January 29, 2013 – STARS training on system updates.
   •   April 9, 2013 – STARS navigation and searches refreshers training.
   •   April 16, 2013 - Restaurant Meal Program Training – current status of Restaurant Meal
       Programs and authorization process.
   •   April 25, 2013 - STARS 101 - Overview of Online Reauthorization Application (ORA)
       process for High Risk Stores, Part 1 - The session reviewed flow charts of the entire ORA
       process, the process for assigning reauthorization applications, the role of the Retailer
       Service Center, and STARS tools available to support working with these retailers.
   •   May 9, 2013 - STARS 101: STARS News You Can Use – Highlights of recent STARS
       releases since the beginning of the fiscal year that accommodate changes made due to
       Retailer Management Modernization.
   •   May 15, 2013 - STARS 101 – Online Reauthorization for High Risk Stores, Part 2 –
       Reviewing and Clearing System Flags on High Risk Stores. System flags insure
       consistency in processes by requiring staff to review before a determination can be made.
   •   May 16, 2013 - STARS 101- Call Order Tracking System and Store Deliverable. This
       session covered the basics of working with the store visit contractor and using the Call
       Order Tracking System (COTS) in STARS.
   •   June 11, 2013 - STARS 101 Online Reauthorization for High Risk Stores – Part 3 –
       Reinstating Withdrawn Online Reauthorization Application Stores.

Retailer Operation staff participate in weekly calls to discuss consistency in procedures, address
training needs and raise policy questions. These weekly sessions have included bona fide
transfer of ownership procedures and high risk store processing and documentation requirements.

In addition, the audit team agreed with the FNS determination in 33 of the 35 instances where
retailers were identified by Scripps Howard. We have reviewed the two instances where the OIG
audit team questioned the FNS finding:
    • FNS agrees that one of the two retailers was previously cleared by FNS in error.
    • There is insufficient information in the documentation provided by OIG to conclude that
        the FNS determination was incorrect in the second case.

Recommendation 2:

Review SOPs to ensure they provide clear instructions on division of responsibilities and the
steps that should be taken to review, authorize, deny, penalize, and collect penalties from an
owner.




                                 AN EQUAL OPPORTUNITY EMPLOYER
                                                                                         Page |6


FNS Response:

FNS agrees with this recommendation and these actions were already underway prior to this
audit.
     • National Standard Operating Procedures are completed and were in place as of February
       1, 2013.
     • Extensive staff training has been completed and will continue to be an integral part of
       operations (see training documentation in response to recommendation 1).
     • An internal controls oversight component has been established (May 1, 2013), and a
       quality assurance function is being integrated into the retailer management function.
     • The Agency is in the midst of a Lean Six Sigma effort to improve the collection of
       established penalties. Areas of improvement under consideration include, but are not
       limited to, the use of data brokers, the Treasury Offset Program (TOP), and a third party
       collection agent at Treasury; all of these options are under consideration for purposes of
       improving collections.
           o This effort will be completed by September 30, 2013.
           o Recommendations from this effort will be implemented in fiscal year 2014.

Recommendation 3:

Update the regulations to require any new applicant and current retailers being reauthorized to
provide FNS with a self-initiated NCIC background check prior to authorization or
reauthorization.

FNS Response:

OIG audit states in the narrative regarding this finding that “regulations do not currently permit
FNS to pursue and obtain a National Crime Information Center (NCIC) background check for
store owners applying to redeem SNAP benefits, and do not require the applicant to obtain their
own NCIC criminal background check” but does not acknowledge, as senior OIG officials have,
that FNS has no statutory authority to access NCIC directly for the purposes described. As
expressed and understood by FNS and senior OIG officials, FNS will not pursue regulations for
the agency to obtain NCIC background checks for applicant store owners based on the agency
having no statutory authority to access NCIC directly.

However, FNS agrees to initiate a proposed rule that would require any new, high risk applicant,
and current high risk retailers being reauthorized who have not already completed such
certification, to provide FNS with a self-initiated NCIC background check prior to authorization
or reauthorization. The required work plan to initiate this proposed rule will be completed in
fiscal year 2014.

Recommendation 4:

Establish SOPs and/or update the handbook to address how criminal background checks will be
used and reviewed by personnel.




                                 AN EQUAL OPPORTUNITY EMPLOYER
                                                                                             Page |7


FNS Response:

FNS will establish appropriate policy and standard operating procedures pending a final
regulation stemming from recommendation 3. These will be established within one year of the
effective date of the final rule.

Recommendation 5:

Propose that the Secretary seek legislative change to allow FNS to retain a portion of funds
collected from retailer penalties as a supplement to its annual appropriations that can be used to
enhance its abilities to oversee retailer authorization, monitoring, and enforcement actions,
including assessing warranted penalties.

FNS Response:

FNS agrees with the goal of enhancing Program integrity. A decision to pursue the ability to
retain a portion of funds collected from retailer penalties as a supplement to annual
appropriations however, requires considerable research and deliberation.

FNS agrees to work with the Office of Management and Budget to develop options for additional
resources to pursue Program compliance. Timeframe is contingent upon the budget process.

Recommendation 6:

Propose that the Secretary seek legislative changes that would allow FNS the authority to require
any applicant of a location that has been previously permanently disqualified for trafficking to
have a vested interest, such as posting a collateral bond or letter of credit before authorization.

FNS Response:

FNS supports this recommendation and will pursue legislative change that would allow FNS the
authority to require any applicant of a location that has been previously permanently disqualified
for trafficking to have a vested interest, such as posting a collateral bond or letter of credit before
authorization. FNS will consider the best option for determining an appropriate, scalable, bond or
letter of credit amount.

Timeframe is contingent on opportunities to pursue statutory change (i.e. via farm bill).

Recommendation 7:

If legislative changes are made, establish collateral bond and letter of credit limits based on the
number of previous violations at the location, or a percentage of the proposed statutory limits for
trafficking penalties. If legislative changes are not made, strengthen oversight and monitoring of
store locations that have been permanently disqualified two or more times for trafficking.




                                   AN EQUAL OPPORTUNITY EMPLOYER
                                                                                           Page |8


FNS Response:

As noted in the Agency’s response to recommendation 6, FNS supports requirement of a vested
interest by the new owners of a previously permanently disqualified location. FNS will consider
the best option for determining an appropriate, scalable, bond amount.
The timeframe is contingent upon recommendation 6 above.

However, FNS does not agree with predicating strengthened oversight and monitoring of store
locations that have been permanently disqualified two or more times for trafficking on whether
recommendation 6 is legally viable. In fact, FNS has already strengthened oversight and
monitoring of such high-risk locations, including additional documentation requirements and
increased frequency for reauthorization, and will continue to pursue opportunities for further
improvements within existing authorities.

Recommendation 8:

Issue a definition of “benefit” that would allow for owners to demonstrate that they did not
benefit from any trafficking that occurred, and are therefore eligible for a civil money penalty in
lieu of disqualification.

FNS Response:

FNS agrees to initiate a proposed rule that includes a definition of “benefit” that would allow
store owners to demonstrate that they did not benefit from trafficking.

The required work plan to initiate this proposed rule will be completed in fiscal year 2014.

Recommendation 9:

Revise regulations and policy to permanently disqualify retail store owners at all authorized
retail locations operated by that owner(s) if the owner(s) does not meet the criteria to receive a
trafficking civil money penalty in lieu of permanent disqualification.

FNS Response:

FNS is supportive of the goal of this recommendation. With this goal in mind, FNS
recommends carrying the premise of recommendation 6 to recommendation 9; i.e. FNS agrees to
initiate a proposed rule that would require that an owner with multiple locations that has any one
of their locations permanently disqualified for trafficking have a vested interest, such as a
collateral bond or letter of credit, which would cover all remaining SNAP authorized locations.
FNS will consider the best option for determining an appropriate, scalable, bond or letter of
credit amount. If additional violations occur, the bond or letter of credit would be forfeited.

The required work plan to initiate this proposed rule will be completed in fiscal year 2014.




                                  AN EQUAL OPPORTUNITY EMPLOYER
                                                                                            Page |9


Recommendation 10:

After regulations are revised, notify the 586 store owners that in the future, any trafficking
violation will require the store owner to qualify for and pay an in lieu of permanent
disqualification penalty or be subject to permanent disqualification at all store locations currently
authorized for that owner.

FNS Response:

FNS concurs with the goal of this recommendation. If we are able to achieve the policy changes
described in Recommendation 9, the Agency agrees to take action consistent with the policy
change. Any actions would be taken within one year of the effective date of the final rule.

In the interim, and by September 30, 2013, FNS will notify these retailers to ensure they are fully
aware of their status and that they are being watched closely as a result of their previous
transgressions.

Recommendation 11:

Initiate the regulatory changes necessary to ensure owners that have been permanently
disqualified for trafficking are not granted authorization as a SNAP retailer at new locations.

FNS Response:

When the owner of a single store is permanently disqualified, subsequent SNAP authorization is
not granted at a new location. However, as this relates to the owners of multiple stores that have
one or more stores disqualified, FNS concurs with the goal of this recommendation.

FNS recommends that the alternative suggested in recommendation 9 be applied here as well.
Statutory change would be required in this instance; i.e. owners of multiple stores that have one
or more stores disqualified would be required to have a vested interest, such a bond or letter of
credit, which would cover a newly authorized SNAP location that has not been deemed a
replacement stores for a previously permanently disqualified location. FNS will consider the
best option for determining an appropriate, scalable, bond or letter of credit amount. FNS agrees
to initiate pursuit of this statutory change.

Timeframe is contingent on opportunities to pursue statutory change (i.e. via farm bill).

Recommendation 12:

Require all compliance documentation associated with a permanent disqualification to be
scanned and uploaded into STARS or another automated system.




                                  AN EQUAL OPPORTUNITY EMPLOYER
                                                                                        P a g e | 10


FNS Response:

This effort was underway as a part of the Retailer Management Modernization prior to this audit.
FNS began to define workflows, business requirements and online solutions in the fall of last
year. FNS will be engaged in detailed requirements gathering and system design in 2014 and
will have an electronic retailer filing system in place by the end of calendar year 2015.

Recommendation 13:

Establish and implement internal controls that would prevent authorization and reauthorization
of high-risk locations with a previously disqualified owner until all associated compliance
information is reviewed by the program specialist and certified to by the supervisor.

FNS Response:

FNS agrees with this recommendation and actions were already on-going prior to this audit. The
following are complete:

   •   Staff is required to review Store Tracking and Redemption system high risk flags and
       obtain information to clear flags before an authorization or reauthorization determination
       is made.

   •   Extensive documentation must be obtained and reviewed before a high risk application
       can be considered complete and processing can begin, or the SNAP reauthorization can
       be completed.
           o      If an applicant-retailer does not provide the required high risk documentation,
                  the application is withdrawn.
           o      In the case of reauthorization, failure to provide required documentation
                  results in withdrawal.

   •   Weekly calls and random reviews of high risk applications and reauthorizations are being
       conducted to ensure standard operating procedures are being followed in a consistent and
       appropriate manner.

A quality assurance team is being hired and trained; in fiscal year 2014 this team will add
another quality check to retailer processes.

Recommendation 14:

Develop a specialized nationwide training program to assist authorization personnel in
identifying associations between new applicants and permanently disqualified owners that would
result in a circumvention determination.




                                 AN EQUAL OPPORTUNITY EMPLOYER
                                                                                       P a g e | 11


FNS Response:

FNS has already developed a nationwide training program. Weekly calls are held to discuss
consistency in procedures, address training needs and raise policy questions. These weekly
sessions have included bona fide transfer of ownership procedures and high risk store processing
and documentation requirements.

As described in the FNS response to Recommendation 1, the Retailer Operations Division has
implemented nationwide training for staff who review all high risk stores and not only for those
involving a prior disqualified owner.
   • This includes both the authorization and reauthorization of high risk stores as the same
       documents are generally required for both.
   • The training has been developed as a joint partnership between the Retailer Operations
       Division and the Retailer Policy and Management Division.
   • This insures that the training is consistent from a procedural, policy and systems
       perspective.
   • As indicated in the response to Recommendation 1, these trainings have included:
           o April 25, 2013 - STARS 101 - Overview of Online Reauthorization Application
               (ORA) process for High Risk Stores, Part 1 The session reviewed flow charts of
               the entire ORA process, the process for assigning reauthorization applications, the
               role of the Retailer Service Center, and STARS tools available to support working
               with these retailers.
           o May 9, 2013 - STARS 101: STARS News You can Use – Highlights of recent
               STARS releases since the beginning of the fiscal year that accommodate changes
               made due to Retailer Management Modernization.
           o May 15, 2013 - STARS 101 – Online Reauthorization for High Risk Stores, Part 2
               – Reviewing and Clearing System Flags on High Risk Stores. System flags insure
               consistency in processes by requiring staff to review before a determination can
               be made.
           o June 11, 2013 - STARS 101 Online Reauthorization for High Risk Stores – Part 3
               – Reinstating Withdrawn Online Reauthorization Application Stores.

Additional training will be held before the end of fiscal year 2013 on topics such as the
methodology for reviewing legal documents and affidavits, and the use of public websites for
obtaining state licensing, property and tax assessments that can be used to verify information
provided by high risk stores.

Recommendation 15:

Review all 51 permanently disqualified owners to determine whether the transfers of ownership
circumvented disqualification and take the appropriate corrective action.




                                 AN EQUAL OPPORTUNITY EMPLOYER
                                                                                          P a g e | 12


FNS Response:

Unfortunately the OIG audit team did not consistently share store specific findings with FNS
staff during the course of the audit for immediate follow-up. OIG shared the list of owners only
once this draft audit report was issued.

FNS has since completed review of these 51 instances and is taking appropriate corrective
action. The following results are current as of June 20, 2013:
    • 18 owners circumvented a permanent disqualification and are being involuntarily
        withdrawn for lack of business integrity.
    • 13 owners circumvented a previous permanent disqualification, but are no longer on the
        program due to involuntary or voluntary withdrawal.
    • 9 owners were permanently disqualified for falsification (1 is currently in judicial
        review).
    • 3 owners are currently under an open Retailer Investigations Branch case .
    • 1 owner was permanently disqualified for trafficking.
    • 1 owner received a less than permanent disqualification (currently under administrative
        review).
    • 1 owner received a less than permanent disqualification, but the decision was overturned
        on judicial review.
    • 1 owner’s withdrawal for circumvention was overturned on administrative review.
    • 4 of the OIG determinations were determined to be speculative as the OIG work papers
        did not clearly identify that circumvention had taken place. FNS will conduct a more in-
        depth review before clearing these cases.

Recommendation 16:

Establish a mechanism to suspend authorization of the retail location until a transfer of
ownership civil money penalty receivable is recorded in the accounting system, or
documentation is provided to Headquarters supporting that the penalty is not appropriate.

FNS Response:

FNS does not agree that it is necessary to establish a new process. FNS already has a mechanism
that requires suspending the authorization of a retailer location until appropriateness of a transfer
of ownership civil money penalty is fully assessed by the retailer operations staff. The process in
place ensures:
    • Until a determination is made as to whether there has been a legitimate transfer of
        ownership, the applicant owner cannot be authorized.
    • If the sale or transfer of the business is not legitimate, the applicant owner must be
        denied. If the sale or transfer is legitimate, then applicant is approved and the former
        owner is billed for the transfer of ownership civil money penalty amount.

FNS continues to focus on staff training to ensure these steps are followed. In addition, a
STARS enhancement will be rolled out in August of 2013 that will require FNS staff to
document (in STARS) the specific reasons for why a transfer penalty was or was not assessed.




                                  AN EQUAL OPPORTUNITY EMPLOYER
                                                                                           P a g e | 13


In addition, automated emails will be generated by STARS when an application for a
disqualified location is authorized, to notify the appropriate staff of the need to evaluate the
disqualified owner for a potential transfer penalty.

Recommendation 17

Review the 188 owners permanently disqualified for trafficking that subsequently transferred
ownership to determine whether a transfer of ownership civil money penalty should be imposed.
If a penalty is appropriate, establish and pursue collections of all penalties.

FNS Response:

Unfortunately the OIG audit team did not consistently share store specific findings with FNS
staff during the course of the audit for immediate follow-up. OIG shared the list of owners once
this draft audit report was issued.

To date, FNS has reviewed 37 owners that OIG says should have been assessed a Transfer of
Ownership Civil Money Penalty (TOCMP):
   • 4 have already been assessed a TOCMP.
   • 28 are being referred to the Investigative Analysis Branch to calculate the correct
       assessment and issue the TOCMP.
   • 5 have been determined not to warrant a TOCMP, but will be referred to the Investigative
       Analysis Branch to conduct a secondary assessment.

OIG noted an additional 27 retailers should have been subject to a TOCMP but at the time of the
store sale, a moratorium had been placed on TOCMP assessment. This is accurate. The Agency
was working through a significant policy question related to TOCMP’s with our legal counsel.
Once the moratorium was lifted SNAP directed retailer operations staff to forgo the TOCMP
assessments due to the time-gap that had occurred for both resource reasons and because these
were deemed difficult to justify. No further action will be taken with regard to these locations;
however, the Store Tracking and Redemption System will be appropriately updated no later than
September 30, 2013.

An additional 124 owners are currently under review. FNS expects to complete this review and
take appropriate action before the end of fiscal year 2013.

Recommendation 18:

Develop and implement internal controls to ensure that personnel are following the updated
high-risk authorization procedures issued on January 31, 2012. In addition, the personnel
responsible for authorization should ensure the information required is received, uploaded into
STARS or other automated system, and reviewed appropriately.




                                  AN EQUAL OPPORTUNITY EMPLOYER
                                                                                            P a g e | 14


FNS Response:

FNS has already completed the actions recommended. The FNS High Risk Policy memo was
issued January 31, 2012 and the audit sample of 95 retail store locations included stores that
were authorized as early as February 1, 2012. Based on that sample, the OIG audit team noted
25 stores with errors.
    • This finding does not reflect OIG audit team discovery of straw ownership or
        circumvention.
    • This finding reflects oversights in collection of business licenses.
    • Though training was conducted immediately following release of the high risk policy, the
        policy was implemented for retailer applicants on a going forward basis, with annual
        reauthorization to capture issues with participating retailers.

In January 2013, the high risk policy memo and checklist that accompanies the policy memo
were updated to provide additional guidance for staff. Specifically, if the SNAP application
indicates that non-food items requiring State/local licenses are sold (i.e., liquor, tobacco, lottery),
copies of those licenses are required prior to SNAP authorization.

FNS has implemented internal controls including random supervisory review of high risk
applications and reauthorization to ensure that all staff adheres to current policy.

Recommendation 19:

Conduct a thorough review of high-risk retail locations authorized for SNAP to determine
whether the new procedures have been followed on a national level. If problems are identified,
take appropriate corrective action.

FNS Response:

FNS has already completed the actions recommended. The FNS Retailer Operations Division
has already built such a review into the ongoing internal-review process. Appropriate follow-up
actions will be taken based on findings from these reviews.

Once fully established in FY 2014, the Retailer Policy and Management Division Quality
Assurance Branch will include review of high risk locations in their review portfolio as well.

Recommendation 20:

Establish Memorandums of Understanding to the extent allowed by law with State licensing
bureaus, such as alcohol, gaming, and tobacco, to obtain background information about retail
owners.




                                   AN EQUAL OPPORTUNITY EMPLOYER
                                                                                      P a g e | 15


FNS Response:

FNS does not agree with this recommendation.
  • It is unclear that the resource requirement necessary for building such an extensive
      network of agreements with individual licensing bureaus in all the States is an effective
      approach.
  • Not all State licensing agencies have information that accurately reflects current
      ownership (for example, in early 2012 the New York State alcohol licensing agency was
      experiencing a 2 years lag in application processing).

Instead, FNS has a process underway to obtain industry input on how to better gather owner
information for the purpose of reviewing high-risk stores applying for authorization. FNS
believes data broker arrangements would be more efficient than hundreds of State licensing
agreements. This process will be completed by the end of calendar year 2014.




                                AN EQUAL OPPORTUNITY EMPLOYER
                                                                                          P a g e | 16


FNS has provided responses to the chart from the audit report, Exhibit A.


Exhibit A: Summary of Monetary Results

Finding
  No.     Recommendation     Description       Amount       Category               FNS Response
                                                                            FNS disputes this
                                                                            amount. There is no
                                                                            indication that the 586
                                                                            retailers noted in this
                                                                            finding are committing
                                                                            fraud. FNS tentatively
                                                                            agrees that $3.8 million of
                                                                            the $65.3 million may be
                                                                            questionable if in fact 39
                                                                            of the 586 owners were
                                                                            directly responsible for the
                                                                            trafficking violations;
                                                                            FNS is reviewing
                                                                            information provided by
                                                                            OIG. As the remaining
                                                                            547 owners were not
                             Permanently                                    directly involved in the
                             disqualified                                   trafficking that occurred,
                             owners for                                     there is no Agency error
                             trafficking                                    associated with allowing
                             were allowed                                   their continued
                             to redeem                      Questioned      participation in SNAP and
                             SNAP                           Costs, No       therefore no questionable
   3             10          benefits.        $65,300,000   Recovery        costs.
                                                                            FNS disputes this amount.
                             Permanently                                    There are at least 4
                             disqualified                                   instances in which the
                             retail store                                   OIG finding was deemed
                             owners                                         speculative. OIG work
                             circumvented                                   papers did not clearly
                             their                                          identify that
                             disqualificati                                 circumvention had taken
                             on by                          Questioned      place.
                             transferring                   Costs, No
   4             15          ownership.        $5,300,000   Recovery
                                                                P a g e | 17


                                                   FNS disputes this amount.
                                                   In 27 instances, FNS staff
                                                   correctly followed policy
                                                   that directed that they not
                                                   pursue a Transfer of
                                                   Ownership Civil Money
                                                   Penalty. Of 37 additional
                                                   owners that have been
                                                   reviewed by FNS, 4 do not
     FNS did not                                   warrant a Transfer of
     always                                        Ownership Civil Money
     determine if                                  Penalty. A full assessment
     a transfer of                 Funds to Be     of the accuracy of this
     ownership                     Put to Better   amount is pending review
     civil money                       Use:        of the remaining 124
     penalty was                   Management      instances identified by
17   warranted.      $6,700,000   Improvements     OIG.
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
